<html>
<title> - WMD TERRORISM AND PROLIFERENT STATES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  WMD TERRORISM AND PROLIFERENT STATES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON PREVENTION OF
                     NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 2005

                               __________

                           Serial No. 109-40

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
31-097                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     Committee on Homeland Security

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     2
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    28

                               Witnesses

Mr. Gregory F. Giles, Public Witness:
  Oral Statement.................................................     3
  Prepared Statenment............................................     5
Dr. Daniel Byman, Director, Center for Peace and Security 
  Studies, Georgetown University and Senior Fellow, Saban Center 
  for Middle East Policy, The Brookings Institution:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Dr. Ray Takeyh, Senior Fellow, Middle Eastern Studies, Council on 
  Foreign Relations:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21


                  WMD TERRORISM AND PROLIFERENT STATES

                              ----------                              


                      Thursday, September 8, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                     and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:05 p.m., in 
Room 2261, Rayburn House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Langevin, Dicks, and 
Norton.
    Mr. Linder. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Prevention of Nuclear and Biological 
Attack, will come to order.
    I would like to welcome and thank our distinguished panel 
of witnesses for appearing before the subcommittee today.
    We may not always be able to precisely predict and 
anticipate the devastation that Mother Nature unleashes, 
however we must ensure that we anticipate a terrorist attack 
involving a weapon of mass destruction.
    We only have to imagine that it was a 10-kiloton nuclear 
device that was set off in the middle of New Orleans to fully 
comprehend the devastation that we would be facing today. What 
we would be doing is recover from a deliberate large-scale 
biological attack.
    As we recognize the strong effort by the Department of 
Homeland Security to assist the people in the devastated Gulf 
Coast region, we must not lose sight of the fact that a 
terrorist assisted by a state actor who is intent on killing a 
large number of U.S. citizens will dwarf in magnitude the 
devastation that we have observed in Mississippi, Alabama and 
Louisiana.
    While natural disasters can only be mitigated, attacks of 
manmade origin can and must be prevented. Prevention can only 
be achieved with accurate assessments of the threat, combined 
with the effective action.
    It is with this outcome in mind that we focus today on a 
particularly challenging threat: states which sponsor 
terrorists, who also pursue weapons of mass destruction.
    The WMD attack always raises questions about the 
capabilities of specific terrorist organizations. Given the 
hurdles that individual terrorist organizations must overcome, 
assistance by a state may be critical to a terrorist group 
wishing to launch a more sophisticated WMD attack.
    Such states could enable terrorist groups to over come 
multiple hurdles in mounting a successful chemical, biological 
and nuclear attack, sanctuary for planning and preparation, 
resources, expertise, material and technology, all vital to 
such an enterprise, to be provided by a state that is 
sympathetic to the terrorists.
    As a nation with a nascent nuclear program, the well-
documented links to Hezbollah and other terrorist 
organizations, Iran is a particular concern.
    While Iran is by no means the only state of this type, its 
continued hostility toward the United States, its past attacks 
on U.S. forces, and its current well publicized proliferation 
activities give it a well-deserved special status.
    Iran continues to convert uranium into a form suitable for 
enrichment, in defiance of IAEA requests to stop. Talks between 
European Union negotiators and Iran aimed at resolving the 
nuclear question have broken down, further dimming the prospect 
for halting Iranian enrichment activities.
    Direct Iranian support for international terrorist 
organizations continues. The State Department's most recent 
country reports on terrorism states that Iran remains the most 
active state sponsor of terrorism. The Wall Street Journal 
reports that Iran's new president has called for a wave of 
Islamic revolution. This sponsorship of terror extends to Iraq 
as well.
    Time magazine recently published a report entitled ``Inside 
Iran's Secret War for Iraq,'' and other media reports have 
chronicled Iranian assistance for insurgent attacks against 
U.S. forces and civilians in Iraq. This was confirmed in the 
recently collected shaped charges in Iraq that clearly shows an 
Iranian pedigree.
    Collectively, these actions give us concern. While 
historically no state, including Iran, has provided WMD to any 
terrorist organization, the future holds no such guarantees. We 
must remain vigilant and informed in this dynamic environment.
    I look forward to hearing from our expert witnesses today 
and their views of the threat as it exists today and how it 
might evolve in the future.
    I now recognize my colleague from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to welcome our witnesses here today. I 
certainly look forward to hearing the testimony.
    After listening to witnesses at previous hearings and 
briefings held by the subcommittee, I feel that our government 
must move quickly to accelerate its efforts to secure nuclear 
material at its source. However, this cannot occur in a vacuum, 
and we must monitor the activities of nations such as Pakistan, 
North Korea and Iran.
    I notice that all of our witnesses prepared testimony 
focused on Iran, and rightly so. Given that it is the most 
active state sponsor of terrorism, combined with the 
unsuccessful attempts by our European allies to prevent the 
Iranians from enriching uranium, we must not underestimate the 
threat a nuclear Iran would pose to our national security.
    I also believe that other nations pose a threat as well. 
North Korea is a designated state sponsor of terrorism and has 
stepped up their weapons-making activities. I have said before 
that North Korea has never developed a weapon system that they 
have not sold, which makes them a likely source for terrorists 
to obtain a weapon of mass destruction on the black market.
    Pakistan is another concern. Given the large-scale 
proliferation activities of the A.Q. Khan network. In fact, 
Pakistan sent enrichment technology to Iran and North Korea and 
it remains unknown whether or not Khan-assisted terrorist 
groups.
    Finally, a large portion of the Russian nuclear stockpile 
is not secure. Given that Russia is the largest source of 
nuclear weapons and weapons-grade nuclear material, we must 
ensure that our government does all it can to ensure that these 
weapons are secured or destroyed.
    I look forward to today's testimony, and I would be 
particularly interested in hearing our witnesses' thoughts on 
North Korea and Pakistan.
    Mr. Chairman, I want to thank you again for holding this 
hearing, and I yield back.
    Mr. Linder. I thank the gentleman.
    We now turn to our panel of expert witnesses.
    Other members are reminded that they may submit written 
statements for the record.
    Mr. Gregory Giles is a national security consultant with 
extensive experience in developing threat assessments for the 
U.S. government, specializing in weapons of mass destruction. 
He has published several reports on Iranian unconventional 
weapons programs.
    Dr. Daniel Byman comes to us from Georgetown University 
where he is an associate professor in the School of Foreign 
Service. Dr. Byman served as a professional staff member with 
both the 9/11 Commission and the joint 9/11 inquiry of the 
House and Senate Intelligence Committees. He has recently 
published a book entitled ``Deadly Connections: States that 
Sponsor Terrorism.''
    Dr. Ray Takeyh is a senior fellow for Middle Eastern 
studies at the Council of Foreign Relations and is a noted 
expert on Iran. He has published extensively on the Middle East 
and has a forthcoming book entitled ``The Guardians of the 
Revolution: Iran's Approach to the World.''
    We welcome you all. We thank you for being here.
    Mr. Giles?

           STATEMENT OF GREGORY GILES, PUBLIC WITNESS

    Mr. Giles. Good morning, Chairman Linder and Ranking Member 
Langevin and distinguished members of the subcommittee. I thank 
you for the opportunity to appear before you today to discuss 
the potential threat of Iranian WMD terrorism against the 
United States.
    As we approach the fourth anniversary of the September 11 
attacks, we are sadly reminded of the tragic costs of 
underestimating our adversaries. It is against this backdrop 
that we must continue to strengthen our efforts to anticipate 
emerging threats against the United States.
    The first part of my testimony suggests that the Islamic 
Republic of Iran stands at a very dangerous nexus of deep 
hostility towards the United States, pursuit of weapons of mass 
destruction, and international terrorism. Therefore, it is only 
prudent that we consider the risk Iran might one day undertake 
or sponsor a WMD terrorist attack against the United States. I 
will provide some scenarios for such a possibility.
    I will then propose a framework that considers, on one 
hand, possible impediments and, on the other, possible enablers 
or inducements to Iranian WMD attack on our country.
    Finally, I will suggest some implications of this threat 
for U.S. national security planning.
    In the interest of time, I would like to proceed directly 
to the scenarios as a way to try and structure our thinking 
about this potential threat. Among the possibilities are the 
following scenarios arranged in order from lesser to greater 
awareness and sanction by Iran's ruling elite.
    Number one, zealots and profiteers in Iran's WMD scientific 
and industrial communities might engage in an A.Q. Khan-like 
network supplying WMD on the black market for terrorist groups.
    Number two, rogue elements within the Islamic Revolutionary 
Guard Corps, which oversees Iran's WMD programs and supports 
international terrorism, might orchestrate a WMD terrorist 
attack of their own.
    Number three, Iran provides terrorist groups with advice on 
how to procure WMD technology, equipment and materials.
    Number four, Iran provides WMD to terrorist proxies and 
trains them to carry out specified attacks.
    And number five, Iran uses its own IRGC or intelligence 
operatives to carry out a deliberate covert WMD attack.
    This list is by no means exhaustive, and analysts have 
different views as to the likelihood of each scenario. But in 
thinking about the likelihood of the scenarios, I put forward a 
framework and emphasize that to date there are no public 
indications that Iran has engaged in WMD terrorism, so it is 
useful to try and assess why that might be and how things might 
change.
    So I offer the following political, security and economic 
impediments to Iranian involvement in WMD terrorism.
    Certainly, Iranian engagement in this kind of behavior 
would fly in the face of various Iranian religious edicts and 
policy pronouncements condemning the use of WMD, and I believe 
would further undermine the mullahs' claim to legitimacy. Also, 
turning over WMD to terrorist proxies could give such groups 
greater political leverage over Teheran, including the 
potential for blackmail.
    On the security front, certainly Iran fears the possibility 
of retaliation and would not want to stimulate its own 
opponents to engage in WMD activity by setting a dangerous 
precedent.
    Finally, on the economic front, nearly 80 percent of Iran's 
foreign income is derived from the sale of oil and natural gas, 
with the very risky prospect of an embargo for such behavior.
    Turning to possible enablers or inducements, on the 
political front, should Israel and the Palestinians appear to 
be making progress toward a peaceful settlement, Iran might try 
to derail the process by dramatically escalating the level of 
violence. Use of WMD by Palestinian rejectionist groups would 
certainly provide such a shock. Extremes within Iran might once 
again initiate a wave of international terrorist attacks in 
order to embarrass their more pragmatic factions in Teheran as 
they did in the 1980s.
    In terms of security, Iran might wish to remind its main 
adversaries of their vulnerabilities by subjecting them to a 
symbolic WMD attack by proxy, in essence an asymmetric shot 
across the bow to deter any preemptive attacks that might be 
under consideration.
    In terms of economics, Iran's mullahs might be less 
inhibited to engage in this kind of activity if they thought 
they could undermine an international oil embargo. Their 
relationship with China in this regard is an interesting 
consideration.
    So in terms of implications, I think in the end whether 
Iran would engage in this kind of activity depends on three 
factors: the regime's risk propensity, which is generally 
regarded as low but not zero; the perception that the benefits 
of such involvements significantly outweigh the costs; and how 
well the mullahs can control the WMD programs and terrorists 
operations within the IRGC and other organizations elsewhere in 
the regime.
    This concludes my prepared statement. With the 
subcommittee's permission, I request that my formal statement 
be submitted for the record.
    Mr. Linder. Without objection, it will be.
    Mr. Giles. Thank you, Chairman Linder and distinguished 
members of the subcommittee. I would be happy to answer any 
questions you have.
    [The statement of Mr. Giles follows:]

                  Prepared Statement of Gregory Giles

I. Introduction
    Good morning, Chairman Linder, Ranking Member Langevin and 
distinguished Members of the Subcommittee. I thank you for the 
opportunity to appear before you today to discuss the potential threat 
of Iranian WMD terrorism against the United States. As we approach the 
fourth anniversary of the September 11th attacks, we are sadly reminded 
of the tragic costs of underestimating our adversaries. It is against 
this backdrop that we must continue to strengthen our efforts to 
anticipate emerging threats against the United States.
    The first part of my testimony suggests that the Islamic Republic 
of Iran stands at a dangerous nexus of deep hostility towards the 
United States, pursuit of weapons of mass destruction, and 
international terrorism. It is only prudent that we consider the risk 
that Iran might one day undertake or sponsor a WMD terrorist attack 
against the United States, and I provide several examples of scenarios 
for such an attack.
    To help assess whether and under what circumstances Iran might 
engage in such behavior, I then propose a framework that considers on 
one hand possible impediments, and on the other hand possible enablers 
or inducements, to Iranian WMD attack on the United States. Finally, I 
suggest a number of implications of this threat for U.S. national 
security planning.

II. The Iranian Threat Nexus

    International Terrorism
    International terrorism has been a cornerstone of Iranian policy 
since the inception of the Islamic Republic in 1979. Terrorism is seen 
as a legitimate policy tool by Iran's ruling clerics, although they do 
not refer to it as such. Instead, they try to cloak it in more 
politically acceptable terms of ``resistance'' and ``export of the 
revolution.'' The goals of Iran's terrorism are to advance Tehran's 
influence and desire for regional hegemony, in the hopes of creating 
like-minded theocracies in the region, and eliminating opposition to 
the regime by liquidating dissidents wherever they may be.
    Domestic politics has had an important influence on the scope and 
timing of Iranian terrorist attacks. In the 1980s, for example, 
extremist factions in Tehran launched a new wave of terrorist attacks 
against Western and Israeli targets in a bid to embarrass and 
outmaneuver their more pragmatic domestic rivals. The pragmatists, for 
their part, had advocated merely a pause in Iranian-sponsored terror 
attacks in order to ease Iran's diplomatic isolation and replenish arms 
needed to continue the war against Iraq.
    A hallmark of Iranian terrorism is the cultivation and reliance on 
foreign Shia extremist groups to do Tehran's bidding. Iran was largely 
responsible for the creation of Hezbollah in Lebanon, and its Islamic 
Revolutionary Guard Corps (IRGC) has been training and equipping 
Hezbollah terrorists for decades. Hezbollah, which has a global 
presence, has been described by senior US Government officials as a far 
more capable organization than al-Qa'ida. In 2002, a Hezbollah fund 
raising cell was uncovered in North Carolina, and the FBI was reported 
to be investigating about 20 other potential Hezbollah cells in the 
United States. Hezbollah had killed more Americans than any other 
terrorist group until September 11th.
    Iran has courted al-Qa'ida over the years, apparently willing to 
set aside Shia-Sunni religious differences in common pursuit of 
toppling moderate Arab states, the destruction of Israel, and the 
withdrawal of the US presence in the Middle East. As detailed by the 9-
11 Commission Report, Iran provided training to al-Qa'ida operatives in 
the early 1990s, helping them to become proficient in the manufacture 
of car bombs, which they have used so effectively against US and 
Western targets worldwide. Iran maintains an ambiguous relationship 
with al-Qa'ida, either ``detaining'' or ``hosting'' a number of senior 
al-Qa'ida operatives who fled Afghanistan, reportedly including Bin 
Laden's son.
    Other terrorist proxies of Iran include Palestinian Islamic Jihad, 
the al-Aqsa Martyrs Brigades, the Popular Front for the Liberation of 
Palestine-General Command, and Hamas. Hamas has made crude attempts to 
introduce poisons into its suicide bombs since the late 1990s. Overall, 
the use of such proxies enables Iran to advance its goals through the 
use of force without the risk of direct reprisals from stronger powers.

    Weapons of Mass Destruction
    Iran has been pursuing WMD since the 1980s, in contravention of its 
numerous nonproliferation treaty obligations. In response to Saddam 
Hussein's use of chemical weapons during the 1980-1988 war with Iran, 
Tehran launched its own chemical warfare (CW) effort and used such 
weapons against Iraq, although it steadfastly denies this. The State 
Department recently declared that, ``. . .Iran is in violation of its 
[Chemical Warfare Convention] obligations because Iran is acting to 
retain and modernize key elements of its CW infrastructure to include 
an offensive CW R&D capability and dispersed mobilization facilities.''
    Likewise, Iran is an original signatory of the Biological Weapons 
Convention, yet is believed to have an active biological warfare 
program masked within its civilian pharmaceutical and biotechnology 
industries.
    Since the 2002 revelation of secret facilities in Iran to enrich 
uranium and produce heavy water, the International Atomic Energy Agency 
(IAEA) has uncovered a large-scale nuclear program in Iran that dates 
back to the 1980s. Much of this program, including the separation of 
plutonium and the enrichment of uranium, was deliberately hidden from 
the IAEA in contravention of Iran's safeguards agreement under the 
Nuclear Non-Proliferation Treaty (NPT).
    Of particular note is Iran's acquisition of uranium enrichment 
technology and equipment from the A.Q. Khan network, which provided 
similar assistance and actual nuclear weapon designs to Libya.
    Since the cover was blown on its clandestine nuclear program, Iran 
has reacted with the same ``cheat and retreat'' tactics Iraq used to 
conceal its nuclear weapons program from UN inspectors after the 1990 
Gulf War. In numerous instances, Iran has understated its nuclear 
activities, only acknowledging their wider scope when presented with 
irrefutable evidence to the contrary by IAEA officials.
    This pattern of deception, denial, and delay has served Iran well, 
helping it to avoid international sanctions for the past three years. 
Indeed, Iran has met international calls to constrain its nuclear 
program with steadfast defiance.
    This defiance belies a determination to attain a nuclear weapons 
capability. Tehran has numerous motivations to get the bomb, spanning 
prestige, security, hegemonic, and domestic political concerns. Should 
they succeed in acquiring nuclear weapons, Iran's mullah's are likely 
to become emboldened on both the international and domestic political 
fronts.

    Hostility Towards the United States
    Hatred of the United States has been the mantra of Iran's theocracy 
since its inception. That hostility derives from a broader anti-
colonial sentiment, resentment of US intervention in Iranian domestic 
politics in the early-1950s, support of the monarchy, a perceived 
``tilt'' toward Iraq during the Iran-Iraq war, and subsequent US 
efforts to isolate the Islamic Republic, including technology denial. 
The leadership's enmity stands in contrast to broad segments of the 
Iranian populace, particularly the post-Khomeini generation, which has 
a more favorable view of the United States.
    The mullah's hostility toward the United States is manifest in the 
1980-81 Tehran embassy hostage crisis, as well as numerous terrorist 
attacks perpetrated by Hezbollah and other proxies at Tehran's behest, 
which resulted in the deaths and wounding of hundreds of US citizens. 
In addition, Iran has orchestrated deadly attacks against US military 
forces, including the bombing of the US Marine barracks in Lebanon in 
1983 and the bombing of Khobar Towers in Saudi Arabia in 1996.
    Many of Iran's extremists harbor a fatalistic vision of 
``inevitable'' conflict with the United States. Iranian leaders have 
long since concluded that a direct confrontation with the United States 
on our terms would spell certain defeat for Tehran. As former defense 
minister Akbar Torkan explained in 1993:
        `` `Can our air force. . .take on the Americans, or our navy 
        take on the American navy? If we put all our country's budget 
        into such a war we would have just burned our money. The way to 
        go about dealing with such a threat requires a different 
        solution entirely.' ''
    In touting Iran's new asymmetric warfare doctrine against the 
United States last fall, IRGC Commander Rahim-Safavi warned that, 
``They know full well that if they start an onslaught against us, we 
will not be confined to our land borders and that we will attack them 
outside the boundaries of our land borders.''
    In short, Iran's hostility towards the United States, 
institutionalized use of terrorist proxies, and large-scale investments 
in asymmetric weapons capabilities and doctrine, provide a disturbing 
picture of what might one day converge in a WMD terrorist attack 
against the United States.

III.What Possible Forms of Involvement?
    Before turning to the framework, it is useful to consider the 
various ways in which Iran might become involved in WMD terrorism. 
Among the possibilities are the following scenarios, arranged in order 
from lesser to greater awareness and sanction by Iran's ruling elite:
        <bullet> Zealots and profiteers in Iran's WMD, scientific, and 
        industrial communities engage in an A.Q. Khan-like WMD black 
        market for terrorist groups
        <bullet> Rogue elements within the IRGC, which plays a key role 
        both in Iran's WMD programs and terrorist operations, 
        orchestrate a WMD terrorist attack
        <bullet> Iran provides terrorist groups with advice on how to 
        procure WMD technology, equipment, and materials
        <bullet> Iran provides WMD to terrorist proxies and trains them 
        to carry out specified attacks
        <bullet> Iran uses its own IRGC/intelligence operatives to 
        carry out a deliberate, covert WMD attack.
    The list is by no means exhaustive, and analysts have different 
views as to the likelihood of each scenario. Still, it is essential to 
develop initially a broad list of potential threat scenarios, evaluate 
the factors which could make them more or less likely, and develop 
intelligence indicators that might signal shifts that could make one 
scenario more or less likely than another.

IV. A Framework for Assessing the Risk of Iranian WMD Terrorism
    To date, there are no public indications that Iran has engaged in 
WMD terrorism. Consequently, it may be useful to think about the issue 
in terms of the political, security, and economic considerations that 
prevent Iran from engaging in such behavior, as well as shifts which 
may enable it.

    Impediments to Involvement in WMD Terrorism

    A. Political
    Iranian involvement in WMD terrorism, if discovered or inferred, 
would carry substantial political costs for the ruling clerics. It 
would undo years of effort to end Iran's isolation and stabilize its 
economy. Such involvement would fly in the face of various Iranian 
religious edicts and policy pronouncements, including Ayatollah 
Khamene'i's declaration shortly after the September 11th attacks that, 
``Killing of people in any place and with any kind of weapons, 
including atomic bombs, long-range missiles, biological or chemical 
weapons, passenger or war planes, carried out by any organization, 
country, or individuals is condemned.'' Official complicity in WMD 
terrorism would likely spell the end of Khamene'i's rule--whose 
legitimacy as the Supreme Leader of Iran is already on weak footing--
whether the result of internal or external pressures.
    Those external pressures could be immense and, increasingly, 
multilateral. In particular, UN Security Council Resolution 1540, which 
was recently adopted by consensus, requires all states to, ``. . . 
refrain from providing any form of support to non-State actors that 
attempt to develop, acquire, manufacture, possess, transport, transfer 
or use nuclear, chemical or biological weapons and their means of 
delivery.'' The new International Convention on Nuclear Terrorism, also 
adopted by consensus in the UN General Assembly, will open for 
signature next week and place additional obligations on states. These 
developments underscore the growing international intolerance of state-
sponsored WMD terrorism. Whether Iran will take heed of this norm will 
probably hinge upon the consequences of violating it, since Tehran also 
signed the Non-Proliferation Treaty, the Chemical Warfare Convention, 
and the Biological Warfare Convention and appears to have violated all 
three.
    Short of leadership or broader regime change, turning over WMD to 
terrorist proxies, who maintain their own agendas and degree of 
independence, could potentially give such groups greater political 
leverage over Tehran. They could, for example, use the weapons in ways 
other than those intended by Iranian leaders. They might also blackmail 
Tehran into meeting certain demands or risk public exposure of the WMD 
transfer.

    B. Security
    As suggested above, the risk of international retribution, 
including military attack against Iran's WMD-related infrastructure and 
possibly regime change, likely exercises a strong restraining influence 
over possible Iranian consideration of engaging in WMD terrorism. Such 
involvement might open a ``Pandora's box'' of another sort, inspiring 
regime opponents like the Mujahedeen-e-Khalq to acquire WMD and use 
them in their campaign to unseat the mullahs, a concern reflected by 
Iranian officials and academics.

    C. Economic
    Approximately 80 percent of Iran's foreign income is derived from 
the sale of its oil and natural gas. This dependency, and the potential 
for its exploitation by a punitive international oil embargo, 
presumably exercises some degree of restraint on the more risky forms 
of Iranian behavior, such as involvement in WMD terrorism.

    Possible Enablers/Inducements to Engage in WMD Terrorism

    A. Political
    It is important to consider the range of political developments 
that might erode Iran's reluctance to engage in WMD terrorism. For 
example, should Israel and the Palestinians appear to be making 
tangible progress toward a peaceful settlement, it is possible that 
Iran might try to derail the process by dramatically escalating the 
level of violence. Use of WMD by Palestinian rejectionist groups would 
certainly provide such a ``shock'' and goad the Israeli military into a 
massive crack-down that would put a halt to a negotiated solution.
    It is also possible that extremists within Iran's formal and 
informal ruling circles might once again initiate a wave of 
international terrorist attacks to counter any perceived challenges 
from more pragmatic factions in Tehran, as they did in the 1980s. WMD 
terrorist attacks by Islamic proxies against Western interests would 
certainly exacerbate tensions with Iran and politically isolate any 
faction that might have been seeking a rapprochement with Washington.
    Another possibility is simple bureaucratic momentum. As mentioned 
above, the IRGC's WMD and terrorism roles might one day conflate in 
unanticipated ways. In this regard, it is important to note the IRGC's 
relative lack of religious oversight, compared to, say, Iran's regular 
military forces.

    B. Security
    Developments in the security realm might likewise undermine Iranian 
reluctance to engage in WMD terrorism. Consistent with its asymmetric 
strategy, Iran may wish to remind its main adversaries (i.e., the 
United States and Israel) of their vulnerabilities by subjecting them 
to a symbolic WMD attack by proxy. The overall goal may be to deter any 
pre-emptive strikes against Iran's WMD infrastructure--in essence, an 
asymmetric ``shot across the bow.''
    Should Iran succeed in producing fissile material, developing 
nuclear weapons, and mating them to long-range delivery systems, 
Iranian foreign policy could be expected to become more assertive 
generally. In the perhaps mistaken confidence that such a capability 
would then preclude future retaliation against Iran, Tehran's leaders 
might be more inclined to support WMD terrorism.

    C. Economic
    In spite of its dependency on oil and natural gas exports to keep 
the Iranian economy afloat, Iran's mullahs may be less inhibited to 
engage in WMD terrorism if they believed that an international oil 
embargo could be averted by shrewd exploitation of the ever increasing 
international demand for energy. In this regard, it is noteworthy that 
Iran has recently deepened its energy ties with China, signing 
contracts to supply Beijing with natural gas for the next 25 years and 
to develop the Yadaravan oil field, deals worth an estimated $200 
billion. The mullahs likely view China's growing dependency on Iranian 
oil and natural gas as a means of securing Beijing's veto in the event 
Iran faces UN Security Council sanctions, be it for pushing its nuclear 
program or other objectionable activity such as involvement in WMD 
terrorism.

V. Implications
    In the end, whether Iran would engage in WMD terrorism probably 
depends on three factors:
        <bullet> the regime's risk propensity--which is generally 
        regarded as low but not ``zero'';
        <bullet> its perception that the benefits of such involvement 
        significantly outweigh the costs; and
        <bullet> how well the mullahs can control WMD programs and 
        terrorist operations within the IRGC and other organizations 
        elsewhere in the regime.
    What I have attempted to demonstrate is that it is possible to 
conceive of situations that might result in a higher Iranian risk 
propensity, a more favorable cost-benefit calculus, and a greater 
possibility of involvement in WMD terrorism than currently appears to 
exist. Undoubtedly, analysts will hold different views on these issues. 
If we are to succeed in correctly anticipating the emergence of an 
Iranian WMD terrorism threat, however, these hypotheses should 
continuously compete with one another as new intelligence is developed 
that might ``narrow the field.''
    Further, as a hedge against intelligence surprise, I believe that 
we should continue to move forward on other fronts, such as the 
development of a network to detect the smuggling of nuclear materials 
and devices into the United States. Such a network should be designed 
with a thinking, adaptive adversary--like Iran--in mind.
    This concludes my prepared statement. With the Subcommittee's 
permission, I request that my formal statement be submitted for the 
record. Chairman Linder, Congressman Langevin, and Members of the 
Subcommittee, I thank you for your attention and will be happy to 
answer any questions you may have.

    Mr. Linder. Thank you, Mr. Giles.
    Dr. Byman?

   STATEMENT OF DANIEL BYMAN, DIRECTOR, CENTER FOR PEACE AND 
 SECURITY STUDIES, GEORGETOWN UNIVERSITY SENIOR FELLOW, SABAN 
   CENTER FOR MIDDLE EAST POLICY AT THE BROOKINGS INSTITUTION

    Mr. Byman. Mr. Chairman, members of the committee, thank 
you for this opportunity to speak before you today.
    To make my position clear from the start, although Iran is 
one of the world's leading sponsors of terrorism, I believe it 
is not likely to transfer chemical, biological or other 
unconventional weapons to terrorist groups.
    My spoken remarks will concentrate on this theme, while my 
prepared remarks discuss Iran's support for terrorism more 
broadly.
    Iran has supported terrorism steadily for 25 years. It has 
had chemical weapons at least for 15 years. Yet during this 
time, it has not transferred these systems. Several reasons 
explain this restraint.
    First, Iran is aware that any major escalation in its 
support of terrorism would incur American wrath and the wrath 
of much of the international community, possibly leading to 
U.N. sanctions and possibly even to a military strike. Iran has 
not transferred much of its advanced conventional weapons to 
terrorist groups in the past. That would be a logical prelude 
to transferring things like chemical or biological weapons.
    Iranian leaders are also extremely well aware that the 
transfer of WMDs would be a U.S. redline that would provoke a 
U.S. response. Traditionally, Iran has tried to have some 
degree of deniability in its use of terrorism, working through 
terrorist groups like the Lebanese Hezbollah to disassociate 
itself from attacks.
    For the most part, unfortunately, this has worked. The 
United States has not retaliated when Iran has used proxies to 
kill Americans in the past. If Iran were to have its proxies 
use WMD, however, that disassociation would not work. The 
United States and other countries would not accept that very 
arbitrary and artificial division.
    Also, Iran's favorite proxies, like the Lebanese Hezbollah, 
do not seek these types of weapons. They, too, recognize the 
red lines the United States and other powers have drawn and 
their current tactics on weapons systems also enable them to 
kill the numbers of people they want to kill. At this time, 
they do not need these weapons.
    It is arguable that some of the more advanced chemical and 
biological weapons systems would be difficult for even a 
skilled terrorist group like the Lebanese Hezbollah to operate 
properly. Although it is worth pointing out a very important 
point for homeland security: The psychological effect would be 
tremendous, even if the number killed were extremely small.
    September 11 also had a limiting effect. A number of states 
and terrorist groups around the world recognized the increased 
U.S. concern with terrorism and have made great attempts to try 
to disassociate themselves or reduce their involvement in this 
as a result.
    In my judgment, Iran is not likely to change its behavior 
with regard to support for terrorism except in the most extreme 
circumstances. Iran might increase its support for terrorism if 
the United States is determined to remove Iran's influence in 
Iraq; if it appears that the United States is going to stay 
indefinitely in Iraq; or if the United States escalates over 
other issues like Iran's nuclear program.
    Yet even here it is not likely to transfer chemical or 
other unconventional weapons to terrorist groups. It would 
instead rely first on traditional methods.
    Only in the event of a truly grave threat to the Iranian 
regime, like an invasion, would these restraints go out the 
window. I believe Iran would start overseas, rather than in the 
American homeland.
    Let me conclude by talking briefly about some of the 
implications for homeland security.
    First of all, the risk of Iranian-sponsored terrorism 
involving WMD in the United States is extremely low, in my 
judgment. That said, it should remain an intelligence priority. 
Given the catastrophic consequences of this, it is something 
that we should be watching, even though the chances are quite 
low.
    I will make an aside at this moment to address what the 
ranking member has noted about Pakistan and North Korea.
    Pakistan in particular is an extremely dangerous state that 
deserves careful watching. The regime stability there is 
unclear. Unlike Iran, it has a large nuclear arsenal. Also, it 
has an extremely large jihadist presence, and in contrast to 
groups like the Lebanese Hezbollah, these groups want WMD.
    In my judgment, Pakistan deserves particular scrutiny 
because of this combination of nuclear weapons, jihadist 
terrorism and internal instability. I am quite concerned over 
the future of that country.
    I will conclude by saying a last recommendation for the 
committee to consider for homeland security is fear management. 
Weapons of mass destruction like chemical weapons and 
biological weapons, most of the systems available to terrorist 
groups that are simple and easy to use are actually not that 
lethal. They can kill dozens at times, but far fewer than 
bullets, far fewer than car bombs. The real effect is 
psychological.
    The comparison I would make is with the anthrax attacks in 
the United States, where tragically I believe five people died, 
but the overall effect was relatively low in terms of actual 
violence, but the psychological effect around the country was 
tremendous.
    Educating our population, having officials on television 
ready to go to say that, while it is scary, it is not something 
to panic over, is very important.
    I will conclude my remarks right now, but I would like to 
thank you for offering me this opportunity to talk before you, 
and ask that my prepared remarks be submitted for the record.
    [The statement of Mr. Byman follows:]

                 Prepared Statement of Dr. Daniel Byman

    Chairman Linder, Members of the Committee, and Committee staff, I 
am grateful for this opportunity to speak before you today.
    I am speaking today as a Professor in the Georgetown University 
Security Studies Program and as a non-resident Senior Fellow at the 
Brookings' Saban Center for Middle East Policy. My remarks are solely 
my own opinion: they do not reflect my past work for the intelligence 
community, the 9/11 Commission, the U.S. Congress, or other branches of 
the U.S. government.
    Since the Islamic Revolution in 1979, Iran has been one of the 
world's most active sponsors of terrorism. Tehran has armed, trained, 
financed, inspired, organized, and otherwise supported dozens of 
violent groups over the years. Iran has backed not only groups in its 
Persian Gulf neighborhood, but also terrorists and radicals in Lebanon, 
the Palestinian territories, Bosnia, the Philippines, and elsewhere.\1\ 
This support remains strong even today. It comes as no surprise then, 
that almost twenty five years after the revolution, the U.S. State 
Department still considers Iran ``the most active state sponsor of 
terrorism.'' \2\
---------------------------------------------------------------------------
    \1\ This testimony draws on my recent book, Deadly Connections: 
States that Sponsor Terrorism (New York: Cambridge University Press, 
2005).
    \2\ United States Department of State, Patterns of Global Terrorism 
2002 (Washington, DC: 2003), p. 77.
---------------------------------------------------------------------------
    Yet despite Iran's very real support for terrorism today, I contend 
that it is not likely to transfer chemical, biological, nuclear, or 
radiological weapons to terrorists for three major reasons. First, 
providing terrorists with such unconventional weapons offers Iran few 
tactical advantages as these groups are able to operate effectively 
with existing methods and weapons. Second, Iran has become more 
cautious in its backing of terrorists in recent years. And third, it is 
highly aware that any major escalation in its support for terrorism 
would incur U.S. wrath and international opprobrium.
    In my prepared statement, I begin by reviewing how Iran has used 
terrorism in the past and how this has changed over the years. I then 
assess U.S. attempts to press Iran with regard to terrorism and why 
they have met with little success. I conclude by arguing that, while I 
believe Iranian terrorism remains a threat, Tehran is not likely to 
pass chemical, biological, or nuclear weapons to terrorists.

Iran's Past Use of Terrorism
    Iran initially began supporting radical groups, including many that 
embraced terrorism, after the 1979 Islamic revolution and quickly 
became the world's leading state supporter of terrorism. Exporting the 
revolution was a leading foreign policy goal, an ambition that led 
Tehran to work with a range of radicals around the world. The clerical 
regime in Tehran viewed supporting revolutions overseas as part of its 
revolutionary duty. The theological justifications for the Iranian 
revolution espoused by the clerics emphasized the spread of Islam 
regardless of state boundaries. Iran's Supreme Leader Ayatollah 
Khomeini, shortly after taking power, declared, ``We should try hard to 
export our revolution to the world . . . we [shall] confront the world 
with our ideology.'' \3\ Indeed, Iran's constitution calls on its 
military forces to ``extend the sovereignty of God's law throughout the 
world.'' \4\
---------------------------------------------------------------------------
    \3\ As quoted in Anoushiravan Ehteshami, After Khomeini (New York: 
Routledge, 1995), p. 131.
    \4\ As quoted in Shaul Bakhash, Reign of the Ayatollahs (New York: 
Basic Books, 1986), p. 233.
---------------------------------------------------------------------------
    For Iran's new leaders, supporting Islam meant supporting 
revolution. Typifying a view common to revolutionary regimes, Iran's 
leaders saw themselves on the defensive yet believed that aggressively 
promoting their revolution was the best means of ensuring its 
survival.\5\ Ayatollah Khomeini declared that ``[A]ll the superpowers 
and the [great] powers have risen to destroy us. If we remain in an 
enclosed environment we shall definitely face defeat.''\6\ Heady with 
their own success against the Shah at home, Iranian leaders made no 
secret of their belief that ``corrupt'' and ``illegitimate'' leaders 
abroad such as Iraq's Saddam Husayn, the Al Saud family in Saudi 
Arabia, and others, would soon fall as well.
---------------------------------------------------------------------------
    \5\ For a review of the war-prone tendencies of revolutionary 
states, see Stephen Walt, Revolution and War (Ithaca, NY: Cornell 
University Press, 1994).
    \6\ As quoted in R.K. Ramazani, Revolutionary Iran: Challenge and 
Response in the Middle East (Baltimore, MD: Johns Hopkins University 
Press, 1985), p. 24.
---------------------------------------------------------------------------
    Immediately following the revolution, Tehran was particularly 
active in working with Shi'a Muslim movements around the world. As 
representatives of the world's largest Shi'a nation, Iranian leaders 
feel a special affinity for the world's Shi'a. In most countries in the 
Muslim world the Shi'a faced oppression and discrimination, and the 
revolution both inspired them to take action and to look to Tehran for 
support. Iran thus backed Shi'a groups in Iraq, Bahrain, Saudi Arabia, 
Pakistan, Kuwait, and elsewhere.
    In the eyes of its founders, however, the Iranian revolution was 
more than simply a Shi'a movement. Tehran saw itself as the champion of 
the ``dispossessed'' around the world. Thus it embraced an array of 
left-wing revolutionary movements, many of which had secular 
ideologies.
    Not surprisingly, this ideological support engendered considerable 
hostility among Iran's neighbors. They regularly condemned Iran, froze 
or cut trade, formed anti-Iran alliances, welcomed Iranian dissidents 
(including several groups that supported terrorism against Iran) and 
took other steps designed to weaken and isolate the new regime. Thus 
emerged a strategic rivalry between Iran and many of its neighbors in 
which terrorism and support for subversion were the major Iranian 
weapons in its toolbox.
    For Iran, supporting subversive movements became a way of weakening 
and destabilizing its neighbors as well as spreading its revolution and 
toppling what in the eyes of Tehran were illegitimate regimes. In 1981, 
shortly after the outbreak of the Iranian revolution, Tehran aided 
Shi'a radicals of the Islamic Front for the Liberation of Bahrain in an 
attempted coup against Bahrain's ruling Al Khalifa family.
    Iran took a similar approach in its support for the Supreme Council 
of the Islamic Revolution in Iraq. On taking power, Iranian leaders 
held a visceral loathing of Saddam Husayn's regime in Iraq--a hatred 
reinforced by Baghdad's immediate execution of several prominent Shi'a 
religious leaders out of fear that they might support an Iranian-style 
movement in Iraq itself. Almost immediately after the revolution, Iran 
began supporting radicalism in Iraq, a decision that contributed to 
Baghdad's decision to invade Iran in 1980. As the war heated up, 
Khomeini declared that the path to Jerusalem's liberation went through 
Baghdad. In November 1982 Tehran organized various Iraqi Shiite groups 
under the umbrella of the Supreme Assembly for the Islamic Revolution 
in Iraq (SCIRI).\7\ SCIRI was more than just a guerrilla front to 
weaken Saddam's Iraq or an organization trying to kill Iraqi leaders: 
it was also a government-in-waiting. As Iran expert R.K. Ramazani 
contends, Iran's goal was to ``undermine the Hussein regime and pave 
the way for the establishment of an Iranian-type Islamic government in 
Iraq.''\8\
---------------------------------------------------------------------------
    \7\ International Crisis Group, ``Iraq's Shiites under Occupation'' 
(September 2003), pp. 12-13. Branches of the Da'wa party initially 
joined SCIRI, as did the Organization of Islamic Action. SCIRI accepted 
Ayatollah Khomeini as its spiritual leader. Iran's attempt to dominate 
the movement, however, alienated many Da'wa members, leading parts of 
the organization to leave the movement.
    \8\ Ramazani, Revolutionary Iran, p. 37.
---------------------------------------------------------------------------
    In addition to giving Iran a way to weaken its neighbors, terrorism 
allowed Iran to influence events well beyond its borders. Lacking 
aircraft carriers or other military forces that can deploy thousands of 
miles away, and with its economy too weak to force far-away countries 
to heed their demands, Iranian political protests have often gone 
unheeded. Iran has used support for terrorists to project power, 
particularly in the Arab-Israeli arena but also against Iraqi targets 
and in Europe. Up until the early 1990s, Iranian intelligence services 
also assassinated Iranian dissidents in Europe.
    Iran supported terrorist groups not only to weaken adversaries, but 
also to have a voice in the opposition to a particular regime. For 
example, after the Israeli invasion of Lebanon and the subsequent U.S. 
and European troop deployments there, Iran chose to undermine the 
existing Shi'a group, Amal, because it had cooperated with Israel. It 
is interesting to note that Iran chose to do so even though the 
organization was well-established and popular. To undermine Amal, 
Iranian intelligence agents, diplomats and members of the Islamic 
Revolutionary Guard Corps (as well as Syrian officials) created the 
Lebanese Hizballah from a motley assortment of small Shiite 
organizations. Iran helped the fledgling movement train and 
indoctrinate new members in the Bekaa Valley and developed an entire 
infrastructure there to support it, including social services and a 
fundraising network. This effort paid off with the creation of a loyal 
and effective proxy. As one senior Hizballah official noted in the 
early 1980s, ``Our relation with the Islamic revolution [in Iran] is 
one of a junior to a senior . . . of a soldier to his commander.'' \9\
---------------------------------------------------------------------------
    \9\ As quoted in Martin Kramer, ``The Moral Logic of Hizballah,'' 
in Origins of Terrorism: Psychologies, Ideologies, Theologies, States 
of Mind, ed. Walter Reich (Cambridge: Cambridge University Press).
---------------------------------------------------------------------------
    Domestic politics also motivate Iran to support radical groups. 
During the 1980s, Iran provided support to a range of Shi'a Muslim 
groups such as the Iraqi Dawa party, the Islamic Front for the 
Liberation of Bahrain, and the Tehrik-e Jafariya-e Pakistan in part 
because the regime's legitimacy also depended on its self-proclaimed 
status as the protector of Muslims, particularly Shi'as, worldwide. 
Bolstering this position required clear gestures of support.
    The prestige garnered from support to radicals mattered abroad as 
well. After the 1979 Islamic revolution, both Saudi Arabia and Iran 
competed to champion Muslim causes as a form of influence. Iran saw its 
support for radical group as a way of demonstrating its bona fides to 
other Islamist revolutionaries.
    Terrorism, of course, was also a means for Iran to strike the 
United States and Israel. With Iranian guidance, the Lebanese Hizballah 
dramatically captured America's attention with devastating suicide 
attacks on the U.S. Embassy in Beirut in April 1983, where 63 people 
died, including 17 Americans, and on the U.S. Marine Barracks in 
October 1983, where 241 U.S. Marines were killed (a simultaneous attack 
killed 58 French peacekeepers). These attacks, and the sense that the 
peacekeepers had little peace to keep, led President Reagan to withdraw 
U.S. troops in February 1984. Hizballah also took numerous Westerners 
hostage in the 1980s, executing several of them. Hizballah, often 
working through suborganizations with different names, took 17 
Americans, 15 Frenchmen, 14 Britons, 7 Swiss, and 7 West Germans 
hostage, as well as 27 others hostage during the 1980s. In March 1992, 
Hizballah and Iran worked together to bomb the Israeli Embassy in 
Argentina, killing 29 and in July 1994 attacked the Jewish Community 
Center in Buenos Aires, killing 86. Hizballah also aided other groups 
that shared its agenda. Iran also directed the attack on the U.S. 
military facility of Khobar Towers in Saudi Arabia in 1996, killing 17 
American troops.\10\ In addition to its support for Hizballah, Iran has 
also supported a wide array of other groups that have attacked Israel. 
In each of these instances, Tehran was able to compensate for its 
military inferiority by relying on terrorism.
---------------------------------------------------------------------------
    \10\ Iran sponsored Saudi Hizballah, which carried out the bombing, 
and also trained cell members. One suspect detained by the FBI and 
later deported to Saudi Arabia noted that the IRGC recruited him and 
that an IRGC leader directed several operations in the Kingdom. The 
suspects also worked with the Iranian Embassy in Damascus for 
logistical support.
---------------------------------------------------------------------------
    Terrorism also offered Iran some degree of deniability in this 
effort. By working through proxies, Iran was able to achieve its own 
interests against the United States, Israel, or states supporting Iraq 
without paying the consequences that more direct involvement might 
entail.

How Iran Uses Terrorism Today
    Iran's use of terrorism has changed dramatically since the 1980s. 
Most importantly, Iran appears not to target Americans directly, though 
it still retains the capability to do so. Iran instead uses terrorism 
as a form of deterrence, ``casing'' U.S. Embassies and other facilities 
to give it a response should the United States step up pressure.\11\ 
Tehran also dramatically cut back on operations in Europe and the Gulf 
states in the last 10 years. Iranian officials feared that attacks on 
Iranian dissidents there would lead to European support for sanctions 
and reduce investment in Iran's economy. In the mid-1990s, Iran's then 
President Ali Akbar Hashemi Rafsanjani engineered a rapprochement with 
the Arabian Gulf states, which led Iran to stop actively trying to 
overthrow those regimes, though it retains ties to a number of Shi'a 
groups there. Taken together, these three shifts represent a dramatic 
change in Iran's support for terrorism.
---------------------------------------------------------------------------
    \11\ Paul Pillar, Terrorism and U.S. Foreign Policy (Washington, 
DC: The Brookings Institution, 2001), p. 159.
---------------------------------------------------------------------------
    Today, Iran uses terrorism and support for radicals in several 
distinct ways. Particularly important for the United States are 
Tehran's close relationship with the Lebanese Hizballah; support for 
anti-Israel Palestinian groups; ties to various factions within Iraq; 
and loose contacts with al-Qa'ida.

    The Lebanese Hizballah
    Of the many terrorist groups that Iran has sponsored, none is more 
important to Tehran than the Lebanese Hizballah.\12\ Their close 
relationship is perhaps the strongest and most effective relationship 
between a state sponsor and a terrorist group in history. Iran helped 
found, organize, and train Hizballah, eventually creating a strong and 
relatively independent terrorist group. In exchange, Hizballah has 
served Iran loyally, striking Iran's various foreign enemies, helping 
assassinate Iranian dissidents, and otherwise advance the interests of 
the Islamic Republic.
---------------------------------------------------------------------------
    \12\ Iranian-linked groups frequently use the label ``Hizballah,'' 
leading to much confusion. In Iran, ``Hizballahis'' are associated with 
pro-regime militants, many of whom fought street battles against rival 
leftist or other organizations in the early days of the revolution. 
Over time, this term became a label used to signify loyalty to the 
Islamic regime. Hizballah movements have reportedly appeared in Kuwait, 
Bahrain, and Saudi Arabia, among other countries. These movements often 
have links to Iran, but have few close ties to the Lebanese Hizballah. 
Other groups that are not linked in any way to Tehran, such as Turkish 
Hizballah, have from time to time adopted the name ``Hizballah''.
---------------------------------------------------------------------------
    Iran, as noted above, helped build the movement from the ground up 
and to this day plays a major role in sustaining it and in its day-to-
day operations. Iranian sponsorship of Hizballah is a major reason why 
Iran consistently tops the U.S. list of state sponsors of terrorism. 
Although exact figures are difficult to verify, Tehran provides perhaps 
$100 million per year to Hizballah. In addition, Iranian forces train 
the movement and provide it with intelligence. Moreover, Hizballah 
operatives enjoy close ties to Iranian intelligence and the Islamic 
Revolutionary Guard Corps, which is linked directly to Iranian Supreme 
Leader Ali Khamenei. Hizballah's senior terrorist, Imad Mugniyieh, 
reportedly enjoys Iranian citizenship and regularly travels there. 
Hizballah's leadership proclaims its loyalty to Khamenei, and he 
reportedly serves as an arbiter for group decisions. Iran is 
particularly influential with regard to Hizballah activities overseas. 
Hizballah, for example, stopped its attacks in Europe as part of a 
broader Iranian decision to halt attacks there.
    In exchange for this aid, Iran gains a weapon against Israel and 
influence far beyond its borders. Because of Hizballah, Iran has defied 
geography and has become a player in the Middle East peace process. 
Hizballah also has cells and operatives around the world--a presence 
that allows Iran to step up terrorism should it so choose.
    Hizballah today is far more cautious than in the past, in large 
part because its earlier successes have reduced the organization's 
incentive to kill large numbers of civilians. Having forced American 
and other Western troops out--and then triumphantly expelled Israel in 
2000--Hizballah enjoys remarkable prestige. Much of the popularity the 
movement enjoys among the Lebanese population comes from removing what 
was widely perceived as a foreign occupier. If the organization were to 
conduct a sustained campaign outside of Lebanon, one that led to an 
Israeli or U.S. retaliation, it would not enjoy similar backing. The 
recent Syrian withdrawal from Lebanon also may force the organization 
to focus even more on Lebanon and less on its activities overseas.
    Hizballah is now better characterized as a guerrilla and political 
movement that at times uses terrorism than as a pure terrorist group. 
Hizballah has reduced its direct involvement in terrorism in recent 
years even as it retained the potential to act and helped Palestinians 
carry out their own terrorist attacks. Indeed, even with regard to 
guerrilla war the movement has shown itself to be a careful actor. 
Hizballah has not used all the weapons available to it, saving long-
range rockets that might strike larger Israeli cities such as Haifa for 
use to deter Israeli escalation. Hizballah made this shift in part 
because it recognized that attacks on civilians that could be labeled 
as ``terrorism'' hurt its image among potential supporters, both inside 
the region and outside it.\13\
---------------------------------------------------------------------------
    \13\ Judith Palmer Harik, Hezbollah: The Changing Face of Terrorism 
(New York: I.B. Tauris, 2004), pp. 2-4.

    Palestinian Groups
    Iran has long supported Palestinian violence against Israel, and it 
has continued to do so since the outbreak of the second intifada in 
September 2000. For Iran, support for the Palestinians serves several 
purposes. First, Iranian leaders have a genuine commitment to help the 
Palestinians fight what Tehran regards as an illegitimate colonial 
regime. Second, support for the Palestinians enhances Iran's prestige 
throughout the Muslim world. Third, and perhaps most importantly, by 
disrupting the Israel-Palestine peace process Iran is able to prevent 
its isolation in the Muslim world. Tehran has long feared (correctly) 
that the United States wanted to isolate it for its rogue behavior. By 
keeping the Palestinian-Israel conflict alive (something that Iran's 
support for terrorism succeeded in doing in the 1990s), Tehran was able 
to divert U.S. pressure (including efforts at regime change) toward 
others in the region.
    Over the years, Tehran has backed several Palestinian groups, 
including those linked to Fatah and the Islamist movement HAMAS. Iran 
gave some money and provided limited training, often through its proxy, 
the Lebanese Hizballah. Both movements, however, remain highly 
independent of Iran. Tehran's most important Palestinian proxy, the 
Palestine Islamic Jihad, is far more willing to follow Iran's lead. 
Palestine Islamic Jihad has proven a particularly bloody group and 
remains committed to conducting heinous attacks on Israeli citizens.

    Radicals in Iraq
    Iran has a daunting array of interests in Iraq. Tehran and Baghdad 
have long been rivals for dominance in the Gulf region. Iran shares a 
long border with Iraq, and the bitter war between the two in the 1980s 
highlighted the security threat that a hostile regime in Baghdad can 
pose to Tehran. As the self-proclaimed champion of the world's Shi'a, 
Iran also takes a strong interest in the fate of Iraq's Shi'a majority: 
an interest reinforced by decades of intermarriage among leading 
clerical families of Iraq and Iran. Tehran also fears that instability 
in Iraq could spill over into Iran, inflaming its own Kurdish 
population or leading to a refugee crisis. Not surprisingly, Iran has 
flooded Iraq with intelligence agents, and members of the Lebanese 
Hizballah have also set up at least a temporary presence there.
    Tehran today has particularly close ties to an array of Iraqi Shi'a 
groups, many of which are leading actors in the new Iraqi government. 
Some of Iran's proxies in the Iran-Iraq war are now major players in 
the government. Although they are not Iranian pawns, they have close 
relations with many leading figures in Iran. For the most part, Iran 
has tried to unite Iraqi Shi'a, recognizing that the U.S.-backed 
political process serves many Iranian interests.
    Tehran's contacts in Iraq, however, go well beyond the Shi'a 
community. Tehran recognizes that in Iraq local influence is as 
important as influence with the central government and almost certainly 
has ties at a local level with various militias and tribal leaders. 
Iran has also tried to cultivate Shi'a leaders such as Moqtada al-Sadr, 
even though he is often vociferously anti-Iranian. For Iran, having 
ties to a wide range of groups gives it additional leverage as well as 
options should one proxy prove unreliable or should the situation on 
the ground suddenly change.
    Although some groups tied to Iran have at times attacked Americans 
or pro-U.S. actors in Iraq, in general Tehran has been a force for 
stabilization. It is not clear if the attacks that did occur were at 
Iran's behest. In part, this restraint is because the leadership that 
has emerged in Iraq in recent months is close to Tehran's ideal. Iran, 
however, is also concerned that greater instability in Iraq could spill 
over into Iran and fears the potential for U.S. retaliation. Thus, 
while Tehran and Washington do not have the same interests in Iraq, 
Iran has not turned Iraq into another Lebanon.
    Iran's ability to wreak havoc in Iraq is immense, however. 
Fortunately for the United States, violence in the Shi'a parts of Iraq 
has been limited. But a force of only a few hundred fighters could 
overturn this tenuous peace, since U.S. forces are currently 
overstretched as they focus on the Sunni and mixed-population parts of 
Iraq. This ability to affect hostilities in Iraq is risky for Iran, but 
it also gives Tehran additional leverage over a future Iraqi government 
as well as the United States. Iran might increase the violence in Iraq 
if it looks like the United States is trying to remove Iran's 
influence, if the United States appears determined to stay 
indefinitely, or if the United States hardens its position in other 
areas, such as the standoff over Iran's nuclear programs.

    Al-Qa'ida and Sunni jihadists
    Iran has long pursued ties to Sunni jihadists, including members of 
al-Qa'ida. The 9/11 Commission reports that in 1991 or 1992 al-Qa'ida 
and Iran had contacts in Sudan and that individuals linked to al-Qa'ida 
received training in Iran and Lebanon in the early 1990s. Several of 
the 9/11 hijackers transited Iran, taking advantage of its policy of 
not stamping the passports of those traveling from Afghanistan--a 
practice that hindered Saudi security agencies? ability to detect the 
terrorists when they later returned to the Kingdom.
    Since 9/11, Iran has cooperated fitfully with the United States in 
fighting various Sunni jihadists. At times Iran has provided 
considerable cooperation, such as sending many jihadists back to their 
home countries, where pro-U.S. security services can question them. 
Tehran, however, has allowed several very senior al-Qa'ida figures, 
such as Saif al-Adel, Saad Bin Ladin, and Abu Hafs the Mauritanian, to 
remain in Iran. Although Iran supposedly monitors individuals linked to 
al-Qa'ida, some reports indicate they played a major role in the May 
2003 attacks in Saudi Arabia--suggesting Iran is not exercising true 
control over them. Iran claims it has subsequently clamped down on 
those suspected of links to the Saudi attacks, but its long-term 
intentions with regard to al-Qa'ida are still unclear and its past 
actions in this regard are cause for concern.
    Iran appears to be keeping its options open with regard to the 
jihadists. On the one hand, it recognizes the heavy price to be paid if 
it openly backs them. Moreover, many jihadists regard the Shi'a as 
apostates deserving death. Sectarian violence is a growing problem in 
Iraq. On the other hand, the jihadists are a potent weapon for Iran, 
which historically has tried to keep as many options open as possible. 
At the very least, Iran seeks to use the jihadists in its custody as a 
bargaining chip. Indeed, it probably hoped to swap the senior al-Qa'ida 
figures for members of the anti-Tehran terrorist group the Mujahedin-e 
Khalq, who were long based in Iraq and, after the U.S. removal of 
Saddam's regime, came under U.S. control. At most, Iran may see the 
jihadists as a potential future ally.

    Keeping Options Open Elsewhere
    Although Iran has cut ties to terrorist groups in the Gulf and 
Europe, it retains a wide network and contacts with many radicals in 
these countries. Such contacts provide Iranian officials with options 
should they seek to use terrorism in these areas again. Moreover, these 
ties are a deterrent, allowing Tehran to tacitly threaten the United 
States or other countries that might seek to act against the clerical 
regime.

Sources of Restraint
    Although Iran's support for terrorists groups have made them more 
lethal (particularly with regard to Hizballah), Tehran is also a source 
of restraint on its proxies. Most importantly, Tehran takes seriously 
the threat of escalation from Israel, the United States, or other 
potential victims should its proxies wreak massive violence. Iran 
stopped supporting attacks by Gulf Shi'a on U.S. forces in the Persian 
Gulf after the 1996 Khobar Towers bombing--despite a continued desire 
to expel Americans from the region--in part because it feared an 
increase in political, economic, and perhaps even military pressure. 
After the bombing, Iranian leaders worried they might have crossed the 
line they had long walked between confrontation and provocation. 
Similarly, Iran did not let the SCIRI make an all-out push to topple 
Saddam's regime when it was reeling after the 1991 Gulf War--despite 
the massacres of Iraqi Shi'a--because Tehran feared a confrontation 
with the victorious U.S. and other coalition forces.
    The restraints states impose are often best observed in what 
terrorist groups do not do. As Iran sought to improve its reputation in 
Europe and the Middle East, the Lebanese Hizballah curtailed its 
attacks on targets in Europe and on Israeli targets worldwide, focusing 
instead on expelling Israel from the security zone along the Lebanon-
Israel border: a struggle widely seen as legitimate in many parts of 
the world.

The Limits of U.S. Pressure
    The problem of terrorism has plagued the U.S.-Iran relationship 
since the Islamic revolution. Arguably, the United States pressured 
Iran more than almost any other country in the world during the 1980s 
and 1990s. After the hostage crisis, the United States cut diplomatic 
ties to Tehran. During Iran's war with Iraq, the United States provided 
intelligence, financial assistance, and other forms of aid to help 
Baghdad survive and eventually forced Iran to the negotiating 
table.\14\
---------------------------------------------------------------------------
    \14\ In 1983, the United States initiated ``Operation Staunch'' to 
prevent Iran from receiving arms. This hindered the war effort against 
Iraq, making it far harder to buy arms, particularly from America, 
formerly Iran's major supplier. Washington also provided limited 
support to Iranian exiles in an attempt to weaken the regime. Such 
efforts hindered Iran, though the reason for the war's end was 
primarily the horrendous costs on both sides and mutual exhaustion.
---------------------------------------------------------------------------
    At times, tension escalated into outright conflict. In response to 
Iranian attacks on U.S. re- flagged oil tankers in 1988, the United 
States sank several ships in the Iranian Navy and also destroyed 
several Iranian oil platforms. The United States also accidentally 
downed an Iranian civilian airliner, killing almost 300--a mistake that 
still angers many Iranians. U.S. strikes were however successful in 
getting the Iranians to cease their efforts at intimidating Iraq's 
allies in the Gulf.
    Following the 1991 war with Iraq, the United States continued to 
maintain a large military presence in the Gulf. The U.S. troop presence 
in the Gulf varied between 8,000 and 25,000. The United States also 
established a series of basing and prepositioning arrangements with 
several of the Gulf monarchies. This presence was in large part 
intended to deter Iraqi aggression and contain the regime in Baghdad. 
However, implicitly--and at times explicitly--the United States also 
sought to use this presence to deter any Iranian adventurism and weaken 
Iran's regional influence.
    The United States also took several covert measures to counter 
Iran. In 1995, the United States Congress proposed $20 million to 
overthrow Iran's government. This attempt at rather overt covert 
action, however, does not appear to have made any significant progress. 
In 1997, in contrast, the United States launched ``Operation 
Sapphire,'' which led to the successful identification and expulsion of 
Iranian intelligence officers around the world.\15\
---------------------------------------------------------------------------
    \15\ Barbara Slavin, `Officials: U.S. `Outed' Iran's Spies in 
1997,'' USA Today, March 30, 2004.
---------------------------------------------------------------------------
    Although sanctions have proven the cornerstone of U.S. policy 
toward Iran since the 1979 Islamic revolution, they have not persuaded 
Tehran to abandon its support for terrorism. Immediately after the 
revolution, Iranian students and other activists seized the U.S. 
Embassy, holding 66 (eventually 52) Americans hostage. In response to 
this and other provocations, the United States froze $12 billion in 
Iranian assets, suspended hundreds of millions of dollars worth of arms 
purchases, and banned imports from Iran. Although the UN failed to join 
in these measures and did not require its member states to punish Iran, 
Western European states and Japan also banned the export of arms, 
halted new contracts from being signed, and limited investment in the 
revolutionary state.
    U.S. sanctions continued even after the hostage crisis ended. 
Washington remained hostile to the Iranian regime as it began an 
ambitious effort to export its revolution, backing radical groups, 
including many that used terrorism, throughout the Middle East. In 
addition to punishing Iran for its support of terrorism, Washington 
used sanctions to address other grievances: to curtail Iran's weapons 
of mass destruction programs, to limit Iran's rebuilding of its 
conventional military arsenal, and to dissuade Iran from opposing the 
Middle East Peace Process.
    With each passing year, the number and type of U.S. sanctions 
increased. In 1984, Iran was added to the state sponsor list, which 
brought a host of mandatory economic restrictions. In particular, the 
United States denied Iran arms--a serious loss, as the pre-
revolutionary regime relied almost entirely on U.S. weapons systems and 
was engaged in a life-or-death struggle with the Iraqi regime from 1980 
to 1988. In 1987, the United States stopped most imports from Iran due 
to terrorism. This policy did not end with the end of the Cold War 
however. In 1995 President Clinton prohibited investment in Iran's oil 
industry. The United States also opposed an oil pipeline that would 
cross Iranian territory, blocked international bank loans, and opposed 
Iran's memberships in international organizations.
    The United States also extended the reach of sanctions beyond Iran, 
punishing those countries that assisted or invested in Iran. In 1996, 
the Anti-Terrorism and Effective Death Penalty Act outlawed any 
financial relations with Iran and also prohibited assistance to 
countries that provided military aid to Iran. That same year, Congress 
passed the Iran-Libya Sanctions Act (ILSA), which imposed penalties on 
foreign companies that invested more than $20 million in Iran's oil 
industry.
    As U.S. pressure increased in the mid-1990s, several European 
states tried to foster moderation in Iran through a process known as 
``critical dialogue.'' European states--despite having experienced 
Tehran's terrorism more recently than the United States--did not see 
Iran as a major threat. Moreover, some European leaders believed that 
dialogue would reduce Iran's hostility.
    Even after the beginning of ``critical dialogue,'' Iran continued 
to use terrorism in the early and mid-1990s and as a result risked 
multilateral sanctions. The killing of Iranian dissidents in Europe and 
the religious decree calling for the murder of British author Salman 
Rushdie both strained relations with European capitals. U.S. diplomatic 
pressure on Europe to act against Iran further increased the pressure. 
The Khobar Towers bombing also increased the risk of a strong U.S. 
response and gave Washington additional leverage to use with its allies 
when it pressed them on terrorism.
    Over time, however, the cumulative effect of sanctions and 
isolation--and, more importantly, the risk that additional attacks 
would lead to increased pressure--led Iran to reduce its direct 
involvement in terrorism. Fearing that this growing pressure would 
jeopardize his government's economic program and isolate his regime, 
Rafsanjani drew back. He put a stop to the assassination of dissidents 
in Europe and mended fences with the Gulf monarchies. The lesson 
learned was that Rafsanjani and other Iranian leaders proved 
particularly sensitive to the risk of a joint U.S.-European front.
    U.S. pressure eased somewhat in the late 1990s, as the United 
States hoped that the new, reformist government of President Khatami 
elected in 1997 would lead to a rapprochement with Iran. In 1997, the 
Clinton administration removed Iran from the list of states involved in 
narcotics trafficking and placed the Mujahedin-e Khalq, a murderous 
terrorist group that had enjoyed some sympathy in Washington because it 
was opposed to the clerical regime, on the initial listing of Foreign 
Terrorist Organizations. In 1998, the Clinton administration issued a 
waiver to ILSA for the French oil company, Total, allowing it to invest 
in Iran's oil industry and averting a transatlantic crisis. Secretary 
Albright also gave a speech that welcomed Khatami's election and called 
for an improved relationship. One year later, permission was given to 
export food and medicine to Iran. In 2000, the Secretary of State 
lifted restrictions on the import of Iranian carpets, caviar, and 
pistachios. For the most part, these gestures had little impact on 
Iran's economy but were intended as symbolic gestures of U.S. openness 
in addition to paving the way for further rapprochement.
    Most importantly, however, the Clinton administration decided not 
to retaliate for the Khobar Towers attack despite considerable evidence 
of Iranian complicity. Administration officials reasoned that 
retaliation would strengthen the opponents of reform in Iran. Moreover, 
limited military strikes in retaliation for terrorist attacks 
historically have had a poor record of success. Finally, the passage of 
time since the 1996 attacks and the eventual determination of Iranian 
culpability made it harder to generate international support for any 
retaliation.
    Though unsuccessful in stopping terrorism, the range of U.S. 
sanctions did hurt Iran considerably. Financial pressure, in particular 
Washington's successful efforts to block IMF and World Bank funding to 
Iran, made Iran's debt crisis more debilitating. Until the 1998 waiver 
for Total, ILSA also discouraged foreign investment, which along with 
other sanctions delayed the development of Iran's dilapidated oil 
infrastructure. Meghan O'Sullivan, however, contends that sanctions are 
only a small part of the explanation for Iran's economic morass. She 
notes that the plunge in the price of oil (in the 1980s and 1990s), 
along with the war with Iraq, and political mismanagement would have 
led to a crisis in any event.\16\
---------------------------------------------------------------------------
    \16\ Meghen O'Sullivan, Shrewd Sanctions: Statecraft and State 
Sponsors of Terrorism (Washington, DC: Brookings, 2003), pp. 61, 67-72.
---------------------------------------------------------------------------
    Although the economic impact of sanctions on Iran was damaging, it 
did not affect the political orientation of the regime, particularly 
with regard to terrorism. Iran did shift its terrorism away from Europe 
and the Gulf and toward Israel, but this shift did not advance, and 
arguably set back, overall U.S. objectives. Moreover, the sanctions 
increased Iran's hostility toward the United States, enabling the 
regime to cite sanctions as ``proof'' that Washington sought to crush 
the Islamic revolution.
    Iran was able to resist sanctions for several reasons. First and 
most importantly, the costs were manageable, allowing Iran to offset 
much of the potential damage. Although the United States was a major 
market for Iranian products, Tehran diversified its trade partners and 
worked through third countries to reach the United States. Second, 
Iran's major export--oil--is in essence a global commodity, and the 
cutoff of one market to one supplier has no significant impact on a 
country's ability to gain the maximize price for its exports.
    Because Iran's regime depended for legitimacy on Islamic radicalism 
and Persian nationalism, both of which opposed any perceived kowtowing 
to Washington, the costs of complying with U.S. pressure were 
considerable. Iranian leaders risked being branded as puppets of the 
United States if they gave into U.S. pressure, a particularly heavy 
charge as the regime came to power in part on a wave of anti-
Americanism. The consolidation of conservative power in Iran in recent 
years, symbolized by the election in June of Mahmoud Ahmadinejad as 
Iran's new President, will only worsen this problem.
    The cost to the United States was also considerable. Sanctions, of 
course, meant that U.S. companies lost trade and investment 
opportunities. Indirect sanctions proved particularly costly. ILSA led 
to vociferous protests from European and other governments.

Iran and WMD Terrorism
    The picture painted above is not pretty, but it is not hopeless 
either. One bright spot is that Iran's past behavior suggests it is not 
likely to provide chemical, biological, radiological, or nuclear 
weapons to a terrorist group. Because these weapons can be 
devastating--or, at the very least, psychologically terrifying even 
when the number directly affected is low--they are far more likely to 
provoke escalation. In addition, these weapons are widely seen as 
heinous, potentially de-legitimating both the group and its state 
sponsor. Perhaps not surprisingly, Iran has not transferred chemical or 
biological weapons or agents to its proxies, despite its capability to 
do so.
    Tehran has also sought at least a degree of deniability in its use 
of terrorism--a reason it often works through the Lebanese Hizballah to 
this day when backing terrorists. As Iran expert Kenneth Pollack notes, 
a chemical or biological attack (to say nothing of a nuclear strike) 
would lead the victim to respond with full force almost 
immediately.\17\ The use of proxies or cutouts would not shield Iran 
from retaliation.
---------------------------------------------------------------------------
    \17\ Kenneth Pollack, The Persian Puzzle (New York: Random House, 
2004), pp. 420-421.
---------------------------------------------------------------------------
    An even better indicator of Iran's restraint so far is its 
unwillingness to transfer more advanced conventional systems--ones that 
would provoke far less outcry than a transfer of chemical weapons--to 
even its close proxies such as the Lebanese Hizballah. Hizballah's most 
infamous weapon, the Katyusha rocket launcher, is based on a 1940s 
Soviet weapons system. Nor have Iran's proxies used man-portable 
surface-to-air missiles.
    September 11 has also had a limiting effect. The attacks occurred 
over a year after the Israeli withdrawal from Lebanon. The tremendous 
worldwide concern about terrorism, and the active U.S. campaign against 
al-Qa'ida, made Iran's proxies cautious about any attacks that would 
lead them to be compared to al-Qa'ida.
    Nor do Iran's favored proxies actively seek weapons of mass 
destruction as does al-Qida. They appear to recognize the ``red line'' 
drawn by the United States and other powers with regard to terrorist 
use of these weapons. Moreover, their current tactics and systems 
enable them to inflict considerable casualties. Indeed, some of the 
more available types of chemical and biological agents would be 
difficult for even a skilled terrorist group to use to inflict mass 
casualties, though the psychological impact would be considerable from 
even a limited attack with unconventional weapons.
    Tehran is not likely to change its behavior on this score except in 
the most extreme circumstances. Traditional terrorist tactics such as 
assassinations and truck bombs have proven effective for Tehran. Only 
in the event of a truly grave threat such as an invasion of Iran would 
many of Tehran's traditional cautions go out the window.

Recommendations
    The United States should consider several steps to ensure Tehran 
does not provide chemical or biological weapons or other unconventional 
systems to terrorists and to decrease its support for terrorism in 
general.
    Most obviously, the United States must work to maintain pressure 
with regard to any transfer of unconventional systems. This is a clear 
success for U.S. policy. Preventing any transfer of unconventional 
weapons was a concern that received tremendous attention in the Clinton 
administration and even more from the Bush administration after 9/11. 
As a result, states today are more cautious than ever in their support 
for terrorism and recognize that providing chemical, biological, 
nuclear, or radiological weapons would cross a U.S. ``red line.''
    In addition to continuing this pressure at a diplomatic level, the 
link between terrorists and weapons of mass destruction must remain a 
top intelligence priority. Although it is difficult to inflict mass 
casualties with many chemical, biological, or radiological agents or 
weapons, the psychological impact--and thus the effect on the world 
economy and overall confidence in government--would still be 
considerable.
    A priority must also be given to cutting any ties between Iran and 
al-Qa'ida. In contrast to Iran's traditional proxies, al-Qa'ida does 
not recognize the U.S. ``red lines'' and actively seeks weapons of mass 
destruction. The United States must make clear to Tehran that it will 
not tolerate continued harboring of senior al-Qa'ida members or any 
Iranian ties, even indirect ones, to the terrorist group.
    Effective pressure and intelligence efforts cannot be maintained by 
us alone. The relative failure of pressure on Iran suggests the 
importance of multilateralism. When Iran feared in the mid-1990s that 
the United States would succeed in getting European states to join in 
sanctions, it reduced its support for terrorism in Europe. U.S. power 
alone has proved far less effective.
    To decrease Iran's use of terrorism in general, the United States 
must develop a more nuanced approach to state terrorism. This requires 
giving the executive branch more flexibility in its implementation of 
punishments linked to the ``state sponsors'' list. In particular, the 
executive branch should be given more power to reward states that are 
improving their behavior with regard to terrorism, even though they 
fall short of all the desired criteria.
    The converse is that U.S. categories and lists should recognize, 
and punish, other types of Iranian support for terrorism. In 
particular, Tehran's inactions should be noted as well as its actions, 
particularly the Iranian regime's unwillingness to expel senior al-
Qa'ida members to countries where they will be brought to justice. The 
United States should also hold Iran more accountable when it uses 
proxies such as the Lebanese Hizballah to sponsor Palestinian 
terrorism.
    Finally, policymakers should recognize that U.S. options with 
regard to Iranian support for terrorism are limited. The United States 
has other vital concerns with regard to Iran--both its nuclear program 
and its activities in Iraq--and pressing hard on terrorism may 
jeopardize any progress, however limited, in these areas. Iran has 
shown itself able to resist U.S. economic pressure in the past and is 
likely to do so in the future as well. Limited military strikes would 
do little to damage Iran's capacity to conduct terrorism and would 
almost certainly increase its activities, both out of revenge and out 
of a sense that the United States is irrevocably hostile. The best bet 
for the United States is to continue to try to shore up allied support 
to increase pressure on Tehran and otherwise ensure that 
counterterrorism remains a priority in U.S. policy towards Iran.

    Mr. Linder. They will, without objection. Thank you, Dr. 
Byman.
    Dr. Takeyh?

STATEMENT OF RAY TAKEYH, SENIOR FELLOW, MIDDLE EASTERN STUDIES, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Mr. Chairman, for inviting me. Some 
of my comments will echo what my colleagues have said.
    What we do know is that Iran is rapidly developing the 
necessary infrastructure for construction of nuclear weapons. 
The question therefore is, would it consider a transfer of 
these weapons to some of its terrorist allies should it achieve 
that capability?
    Here, what we need to consider first of all is that much of 
Iranian terrorism today is actually confined to the Israeli-
Palestinian arena and much of the most reliable and intimate of 
its terrorist allies are Hezbollah and to a lesser extent the 
Palestinian rejectionist groups Hamas and Islamic Jihad. 
Certainly, even a cursory examination of Iranian rhetoric 
reveals that they tend to reject Israel as an illegitimate 
state that is usurping sacred Islamic land and is acting as 
sort of an agent of American imperial aggrandizement in the 
Middle East.
    But Iran as a regime does not seem inordinately concerned 
about Israel's nuclear monopoly, nor does it necessarily feel 
threatened by Israel's formidable armed forces. For the Islamic 
Republic, Israel may be an ideological affront, but it is not 
an existential threat mandating provision of nuclear weapons or 
offering such weapons to its terrorist clients.
    Despite Iran's inflammatory conduct in the Palestinian-
Israeli arena, it is important to reflect that during the past 
quarter-century, it has sought to regulate its low-intensity 
conflict with Israel and has avoided direct military 
confrontation with Jerusalem.
    This is conflict that is largely waged by proxies in a 
controlled manner. For such a strategy to succeed, Iran does 
not need to necessarily transfer such weaponry or escalate the 
conflict. For example, as Dan Byman mentioned, Iran has not 
transferred its chemical and biological weapons to terrorist 
organizations, nor for that matter its more powerful and 
sophisticated missile technology.
    For Iran it may be important for these groups to persist, 
to survive, to conduct violence against the Israeli state, but 
such conflict has to take place within distinct redlines. A 
policy of restrained hostility best serves Iran's strategic and 
ideological purposes.
    Moreover, the most critical mission for Iran's ruling class 
is survival of the regime and preservation of Iran's 
territorial integrity. As such, transferring nuclear arms to a 
terrorist client that may be difficult to restrain or 
discipline would certainly expose the regime to an unacceptable 
degree of danger in terms of Israeli and potential American 
military retaliation. Any measure that could threaten the 
clerical leaders' hold on power will be strongly resisted by 
Iran's relatively risk-adverse rulers.
    The mullahs may be hostile to Israel, but they do 
appreciate that such hostility, should it escape their 
controlled parameters, could confront them with dangers to 
their regime's survival. So long as Iran's rulers remain 
focused on their power, they would recoil from rash measures 
such as giving nuclear arms to third parties, however reliable 
and longstanding that relationship with those third parties may 
be.
    Moreover, in the aftermath of September 11, there has been 
a subtle calculation in Iran's approach to Hezbollah and other 
terrorist clients. At a time when the United States is waging a 
global war against terrorism, Iran is becoming a bit more 
circumspect and cautious in its support for Hezbollah. While 
Iran sustains its support for such organizations, it has in the 
past tried to restrain them.
    One of the ironies of the current situation is the Iranian 
leadership that had sought so much to instigate Hezbollah 
violence, in some cases it is seeking to restrain that 
organization. The theocratic rules are beginning to discern 
that tempering their approach to the peace process is a policy 
that may soon be in their interests.
    I conclude my statement by suggesting that Iran becoming 
the next nuclear-weapons state is not necessarily an 
inevitability. There is much that the United States and the 
international community can still do to prevent Iran from 
crossing the nuclear threshold and therefore avoiding some of 
the problems such as those we are discussing today.
    I will stop there. Thank you.
    [The statement of Mr. Takeyh follows:]

                    Prepared Statement of Ray Takeyh

    As the debate lingers regarding vanished Iraqi weapons of mass 
destruction, yet another proliferation crisis is looming in the Middle 
East. Washington and much of the international community fears that 
under the auspices of civilian research program, Iran is gradually 
accumulating the technology and the expertise necessary for the 
construction of nuclear weapons. The critical question remains would 
Iran transfer such weapons to its terrorist allies should it acquire a 
nuclear capability? The answer to this question requires a better 
understanding of the interlocking calculations that propel Iran toward 
the nuclear option in the first place.

                      Why Does Iran Want the Bomb?

    Contrary to many Western assumptions, Iran's quest for nuclear 
weapons does not stem from irrational ideological postulations, but 
from a judicious attempt to craft a viable deterrent posture against a 
range of threats. It is often argued that Iran's dangerous and 
unpredictable neighborhood grants it ample incentive for acquiring 
nuclear weapons. However, it is hard to see how persistent volatility 
on Iran's frontiers can be ameliorated by the possession of such 
weapons. Instability in Afghanistan and Central Asia may be sources of 
significant concern for Iran's defense planners, but nuclear weapons 
can scarcely defuse such crises. A more careful examination reveals 
that Iran's nuclear program has been conditioned by a narrower but more 
pronounced set of threats. Historically, the need to negate the 
American and Iraqi threats has been the primary motivation. In more 
recent times, the simmering concerns regarding the stability of a 
nuclear-armed Pakistan have similarly enhanced the value of such 
weapons to Iran's planners. In the end, for Iran this is a weapon of 
deterrence not one that is to be given to terrorist organizations or 
brandished to gain diplomatic leverage in the region.
    From the Islamic Republic's perspective, the Gulf is its most 
important strategic arena, constituting its most reliable access to the 
international petroleum market. For long, it was Iraq that actuated the 
theocratic elite toward a search for a nuclear option. Saddam's Iraq 
not only sought hegemony over the Gulf, and indeed the larger Middle 
East, but also waged a merciless eight-year war against Iran. It is the 
developments in the Gulf that will likely condition Iran's defense 
posture and nuclear ambitions for the foreseeable future.
    The impact of the Iran-Iraq war on Tehran's nuclear calculations 
cannot be underestimated. Iraq's employment of chemical weapons against 
Iranian civilians and combatants led to an estimated 50,000 casualties 
and permanently scared Iran's national psyche. Whatever their tactical 
military utility, in the hands of Saddam chemical weapons were tools of 
terror, as he hoped that through their indiscriminate use he could 
frighten and demoralize the Iranian populace. To an extent this 
strategy proved effective, Iraq's targeting of Iranian cities during 
the latter stages of the war did much to undermine the national support 
for the continuation of the conflict. Far from being a historic memory, 
the war and its legacy are debated daily in the pages of newspapers, in 
the halls of the universities, and the floor of the parliament. As the 
newspaper Ya Letharat noted, ``One can still see the wounds of our war 
veterans that were inflicted by poison gas as used by Saddam Hussein 
that were made in Germany and France.'' The dramatic memories of the 
war have led to cries of ``never again,'' uniting a fractious public 
behind the desire to achieve not just a credible deterrent posture but 
potentially a convincing retaliatory capability.
    Beyond the human toll, the war also changed Iran's strategic 
doctrine. During the war, Iran persisted with the notion that 
technological superiority cannot overcome revolutionary zeal and a 
willingness to offer martyrs. To compensate for its lack of weaponry, 
Iran launched human wave assaults and used its young population as a 
tool of an offensive military strategy. The devastation of the war and 
the loss of ``martyrdom'' appetite among Iran's youth has invalidated 
that theory. As Rafsanjani acknowledged, ``With regards to chemical, 
bacteriological and radiological weapons, it was made clear during the 
war that these weapons are very decisive. We should fully equip 
ourselves in both offensive and defensive use of these weapons. 
Moreover, the indifference of the international community to Saddam's 
crimes also left its mark, leading Iran to reject the notion that 
international treaties and compacts can ensure its security. As the 
former commander of the Revolutionary Guards Mohsen Rezai stipulated, 
``We cannot, generally speaking, argue that our country will derive any 
benefit from accepting international treaties.'' Deterrence could no 
longer be predicated on revolutionary commitment and international 
opinion, as Iran required a more credible military response.
    The overthrow of Saddam's regime has diminished but by no means 
eliminated the Iraqi challenge. The unpredictable nature of 
developments in Iraq has intensified Iran's anxieties and further 
enhanced the utility of the nuclear option. Should Iraq emerge as a 
close US ally policing the Gulf on the behest of its superpower 
benefactor, Iran will stand marginalized and isolated. Indeed, the 
long-standing ambition of successive Iraqi governments to assert 
predominance in the Gulf may finally be nurtured by a superpower 
seeking local allies to contain recalcitrant states such as Iran. A 
revival of the Nixon Doctrine, whereby the US sought to ensure the 
stability of the Persian Gulf by arming its pliant Iranian ally, with 
Iraq now assuming that role, would seriously constrain Tehran's 
options. A presumptive nuclear capability would grant Iran a greater 
ability to assert its interests and press its claims. At any rate, the 
unforeseen conduct of the sovereign Iraqi government compels the 
theocratic leadership to formulate a range of contingencies, and one 
such option is to sustain a robust nuclear research program.
    Iraq is not the only potential problem that Iran faces, as looking 
east lies a nuclear-armed Pakistan with its own strain of anti-Shiism. 
Although General Musharaff is routinely celebrated in Washington as 
reliable ally in the war against terrorism, Pakistan's past is more 
checkered and problematic. Throughout the 1990s, Pakistan perceived the 
demise of the Soviet Union as a unique opportunity to exert its 
influence in Central Asia and to capture the emerging markets in that 
critical area. Afghanistan was viewed as an indispensable bridge to 
Central Asia, and Pakistani intelligence services did much to ensure 
the triumph of the radical Taliban movement in the ensuing Afghan civil 
war. The rise of the Taliban and the eventual establishment of the al-
Qa'ida camps in Afghanistan had much to do with Pakistan's cynical 
strategy. Throughout the 1990s, such Pakistani machinations caused 
considerable tensions with Iran that was uneasy about the emergence of 
a radical Sunni regime on its borders.
    Although since September 11th with Pakistan's final abandonment of 
the Taliban, its relations with Iran have improved, the specter of 
instability in Islamabad haunts Iran's leadership. The possibility of 
the collapse of the current military government and its displacement by 
a radical Sunni regime with access to nuclear weapons is something Iran 
must guard against. The detonation of the bomb by Pakistan in 1998 
caused considerable anxiety in Tehran with Rafsanjani stressing, ``This 
is a major step toward proliferation of nuclear weapons. This is a 
truly dangerous matter and we must be concerned.'' Foreign Minister 
Kamal Kharrazi also mused, ``This was one genie that was much better to 
have stayed confined in the bottle.'' Along with Iraq, Pakistan is a 
potential threat that Iran must take into consideration as it plots its 
defense strategy.
    Although both Iraq and Pakistan constitute long-term sources of 
concern, today the United States stands as Iran's foremost strategic 
challenge. US-Iranian relations have become even more strained in 
recent years. Under the auspices of the Bush Doctrine, the United 
States has arrogated itself the right to employ preemptive military 
intervention as a means of disarming radical states. The massive 
projection of American power on all of Iran's frontiers since September 
11th has added credence to the Iranian claim of being encircled by the 
United States. The conservative newspaper Jumhuri-ye Islami captured 
Tehran's dilemma by noting, ``In the contemporary world, it is obvious 
that having access to advanced weapons shall cause deterrence and 
therefore security, and will neutralize the evil wishes of great powers 
to attack other nations and countries.'' In a rare note of agreement, 
the leading liberal newspaper, Aftab-e Yazd similarly stressed that, 
given the regional exigencies, ``In the future Iran might be thinking 
about the military aspects of nuclear energy.''
    The remarkable success of Operation Iraqi Freedom in overthrowing 
Saddam cannot but have made a formidable impression on Iran's 
leadership. The fact remains that Iraq's anticipated chemical weapons 
did not deter Washington from military intervention. As an Iranian 
official confessed, ``the fact that Saddam was toppled in twenty-one 
days is something that should concern all the countries in the 
region.'' Conversely, North Korea offers its own lessons and 
possibilities. Pyongyang's presumed nuclear capability has not only 
obviated a preemptive invasion, but actually generated potential 
security and economic benefits. President Bush may loathe Kim Jong Il, 
but far from contemplating military action, the United States and its 
allies are considering an economic relief package and security 
guarantees to dissuade North Korea from its nuclear path. The 
contrasting fates of Iraq and North Korea certainly elevate the 
significance of nuclear weapons in the Iranian clerical cosmology.
    Post September 11th developments in the Middle East have had a 
paradoxical impact on the Islamic Republic. Two of Iran's formidable 
foes, the Taliban and Saddam Hussein, have been overthrown by the 
United States. In the meantime, Iran's American nemesis is entangled in 
an Iraqi quagmire, draining its resources and tempering its ambitions. 
Nevertheless, the Iranian clerical elite expect a turbulent future, 
which accentuates their sense of insecurity. Iran remains in America's 
crosshairs, at a time when the US military presence in the region has 
never been greater. The influential Iran News emphasized this point in 
an editorial stressing, ``Based on Bush's record after 9/11, one can 
only conclude that the US has not invaded our two immediate neighbors 
to the east and the west just to fight al-Qa'ida. Consequently, astute 
political observers warn that Iran is next on the US list of direct 
targets.'' Such anxieties enhance the apparent strategic utility of 
nuclear weapons to Iran and validate the claim that the Islamic 
Republic requires such a capability to ensure both regime survival and 
territorial integrity.
    As evident, Iran's nuclear calculations and terrorist activities 
are distinctly separate. To be sure, any cursory observation reveals 
that among Iran's most entrenched positions is its sponsorship of 
terrorism. However, much of Iranian terrorist activities today are 
limited to the Israeli-Palestinian conflict, as the Islamic Republic 
remains a generous benefactor of Hezbollah, and to a lesser extent, 
Hamas and Palestinian Islamic Jihad. Would Iran be tempted to offer its 
nuclear arsenal to such forces as they wage their campaigns against 
Israel? Certainly, since the inception of the Islamic Republic, Iran 
has defied the laws of international politics by pursuing an irrational 
policy toward the peace process that has subordinated its practical 
interest to its ideological imperatives. Iran's nuclear weapons program 
may have began for reasonable strategic purposes, but would those 
calculations be overtaken by ideological factors, leading Iran to 
transfer such arms to its terrorist clients?
    The answer to these questions requires a better understanding of 
the nature of Iranian-Israeli conflict. For a generation of Iranian 
clerics, Israel remains an illegitimate state, usurping sacred Islamic 
lands and serving as an instrument of American imperial encroachment of 
the Middle East. Such an ideological animus has led Iran to offer 
substantial monetary and moral support to anti-Israeli terrorist 
organizations. But, Iran's regime does not seem inordinately concerned 
about Israel's nuclear monopoly, nor does it feel itself necessarily 
threatened by Israel's formidable armed forces. Ali Khamenei, Iran's 
Supreme Leader, has stipulated Iran's controlled-rage by stressing, 
``Palestine issue is not Iran's jihad.'' The alarmist Iranian rhetoric 
and the immediacy of the Israeli threat is more an attempt to mobilize 
domestic and regional constituencies behind an anti-Israeli policy then 
a genuine reflection of concern. For the Islamic Republic, Israel maybe 
an ideological affront, but it is not an existential threat mandating 
provision of nuclear weapons or offering such arms to its terrorist 
clients.
    Despite Iran's inflammatory conduct, the fact is that during the 
past quarter of a century, it has sought to regulate its low intensity 
conflict with Israel and has assiduously avoided direct military 
confrontation with Jerusalem. This is a conflict that is largely waged 
by proxies in a controlled manner. Such a strategy allows Iran to 
brandish its Islamic credentials without necessarily exposing itself to 
inordinate danger and does not call for granting nuclear arms to 
clients. For example, Iran has not transferred any of its chemical or 
biological weapons to terrorist organizations nor its more powerful and 
potent missile technology. For Iran, it may be important for these 
groups to survive and wage their conflict against Israel, but such 
conflict has to take place within distinct redlines. A policy of 
restrained hostility best serves Iran's strategic and ideological 
purposes.
    Moreover, the critical mission for Iran's theocratic oligarchs is 
survival of their regime and preservation of Iran's territorial 
integrity. As such, transferring nuclear arms to a terrorist client 
that may be difficult to restrain or discipline would certainly expose 
the regime to an unacceptable degree of Israeli or American 
retaliation. Any measure that could potentially threaten the clerical 
leaders hold on power will be strongly resisted by Iran's risk-averse 
rulers. The mullahs maybe perennially hostile to Israel, but they do 
appreciate that should such hostility escape its controlled parameters, 
they could find themselves in a confrontation that would indeed 
threaten the survival of their regime. So long as Iran's rulers remain 
focus on their power, they would recoil from rash measures such as 
giving nuclear bombs to third parties, however reliable and long-
standing their relationship with those parties maybe.
    It is such calculations that in the aftermath of September 11th 
have somewhat even altered the nature of Iran's relationship with 
Hezbollah. At a time when the US is waging a global war against 
terrorism, Iran is becoming more circumspect and cautious in its 
support for Hezbollah. While Iran's sustained support for rejectionist 
forces has garnered it much regional acclaim in the past, such conduct 
today makes it a possible target for US retaliation. In an ironic twist 
of events, Iranian leaders who previously sought to instigate violence 
by Hezbollah are increasingly urging it to behave with restraint. The 
guardians of the theocracy are beginning to discern that tempering 
their approach to the peace process is a policy that Iran may soon find 
in its interest.
    In sum, the Islamic Republic's search for nuclear weapons stems 
from a strategic calculation of seeking deterrence against a range of 
actors. This is not a weapon to be brandish as part of an aggressive 
diplomacy or granted to Iran's terrorist clients. Nor are Iran's 
nuclear motivations necessarily immutable, as more imaginative American 
diplomacy can still prevent Iran from crossing the nuclear threshold, 
obviating another proliferation crisis in the Middle East.

    Mr. Linder. Thank you, Dr. Takeyh.
    I will begin the questioning with Mr. Giles.
    We believe there is still a remnant A.Q. Khan network out 
there. Are there other copycats out there?
    Mr. Giles. Mr. Chairman, I would first of all say that the 
information I have is based strictly on open sources, but what 
I would suspect is that this has been an extremely profitable 
black market for those engaged in it. Where we may have rolled 
up some of the members, I think that leaves a vacuum that 
others motivated by greed or ideology would be willing to fill.
    Mr. Linder. Would you anticipate Israel would make a strike 
on nuclear facilities in Iran, Dr. Byman?
    Mr. Byman. No, it would not. I would say that is certainly 
something Israel would consider.
    The problem is when you look at the military options, they 
are quite poor. The Israeli raid on the Iraqi facility 
succeeded in part because it had never been done before. But as 
soon as that happened, every country that was pursuing a 
clandestine weapons program began to disperse its facilities. 
Often they are co-located with civilian facilities. From even 
an American military point of view, a military attack is 
extremely difficult.
    So, knowing the political and diplomatic consequences, I am 
not sure the Israelis believe it would succeed.
    Mr. Linder. Dr. Takeyh, you seem to think that the Iranian 
rulers are much like American political parties: just trying to 
keep their power. Would you anticipate that North Korea would 
have the same response?
    Mr. Takeyh. I am not actually a North Korea expert, but I 
do tend to believe that all these states that engage in 
terrorism and engage in proliferation of weapons of mass 
destruction, they do tend to base their calculation on some 
from their perspective relatively judicious security 
calculations.
    For the Iranian regime--and I suspect that may actually 
have some sort of an impact on the North Korean regime--these 
are essentially weapons of deterrence, deterrence against an 
entire range of threats, perceived threats even, whether it is 
the American threat, whether it is the potential Pakistani 
threat, which is felt rather acutely in Iran.
    Mr. Linder. Excuse me. You don't think Iran would make an 
offensive effort against Israel if they had the power to do so?
    Mr. Takeyh. The argument that you can make is perhaps 
Iran's engagement with terrorism would be more intensified 
because they perceive certain immunities because of the 
acquisition of nuclear deterrence. But I do not believe that 
you will begin to see an escalation or intensification of 
Iran's participation in anti-peace process affairs.
    Mr. Linder. Dr. Byman, you indicated that Iran has not 
transferred any of its WMD to any other terrorist groups, or I 
think you said any of its conventional armaments. But wasn't it 
an Iranian ship that was captured going to the Palestinian 
Authority?
    Mr. Byman. I am sorry; I should have clarified that. What I 
meant to say is the most sophisticated conventional armaments 
it has, such as missile systems. My judgment would be we would 
see Iran, if it were trying to escalate, transferring its most 
sophisticated weapons before it transferred things like 
unconventional weapons.
    So it has provided a wide, wide range of small arms to 
numerous terrorist groups, but it has not provided its most 
advanced systems to them.
    Mr. Linder. You talked about the number of nukes in 
Pakistan. Can you quantify that?
    Mr. Byman. This is based on unclassified sources. My 
understanding is that it is actually in the dozens, but there 
are some questions in terms of both not only the number, but 
the capabilities.
    The Pakistani nuclear tests were successful, but the 
weapons that were exploded were actually relatively small. It 
is unclear whether that is because they did not have enough 
fissile material, or because there was no point in doing a 
large explosion. The whole point was simply to demonstrate. I 
do not know the rest of that information.
    Mr. Linder. The instructions in A.Q. Khan network have been 
passed around everywhere. Would it still take the 
sophistication of a nation-state to be able to build on those 
instructions?
    Mr. Byman. To build on those instructions, yes. The 
infrastructure required for a nuclear program is considerable, 
but there are a couple of other options.
    Mr. Linder. Is that the enrichment process?
    Mr. Byman. Is it partly the enrichment process; it is part 
the delivery process. From blackboard to delivery, there are a 
number of steps that are quite extensive. However, you can buy 
a bomb off the shelf, in theory.
    Also, there is the problem of radiological material which 
is actually not terribly lethal in most cases, but 
psychologically could be quite effective.
    Mr. Linder. Thank you.
    Mr. Langevin?
    Mr. Langevin. Thank you.
    Dr. Byman, I would just like to probe you on a few of your 
points, if I could for just a minute.
    You said that Iran has not shown a propensity to transfer 
WMD technology, either overtly or covertly. But isn't it true, 
though, that the United States in many ways is the only thing 
that stands between them and a stated goal of theirs to spread 
radical Islam around the world?
    Simply transferring other types of WMD such as chemical 
weapons would not necessarily achieve the result that a 
detonation of a nuclear device would achieve if, for example, a 
device were detonated in Washington and they felt that they 
could decapitate the United States government. It would clearly 
be a very different situation than just transferring chemical 
weapons.
    Can you talk about that a little bit?
    I do not know that I buy into the argument that just 
because they have not transferred other types of WMD that they 
would not covertly, especially if they felt they could get away 
with it covertly, that they would not consider transferring WMD 
technology with respect to nuclear weapons.
    And also, just one other thing on that point. You also 
spoke about Pakistan. I agree that we should be concerned about 
Pakistan of the A.Q. Khan network and the instability that 
potentially exists in Pakistan. But you mentioned that 
dedicated Islamic extremists exist within Pakistan.
    Wouldn't you also say that dedicated Islamic extremists 
also are present to a great extent in Iran as well, and that we 
could very easily see a duplication of an A.Q. Khan-type emerge 
from Iran if they were to develop nuclear weapons?
    So just on those two points, if you could elaborate.
    Mr. Byman. I would be happy to.
    As odd as it sounds, Iran's efforts to spread the 
revolution have declined precipitously in the last 25 years. If 
we were having this hearing 20 years ago, we would be talking 
about Iranian active activities in Europe, the Persian Gulf, 
Latin America, Asia. Today, as Dr. Takeyh pointed out, Iran's 
support for terrorism is primarily concentrated against Israel.
    However, your point about the decapitation strike on the 
United States is an interesting one because Iran, of course, 
has tremendous enmity toward the United States. However, Iran 
is intensely aware, and Iranian leaders have discussed this, of 
their military inferiority toward the United States. They 
believe the United States is waiting to pounce on Iran.
    I believe quite strongly that, were there to be any nuclear 
attack on the United States, the consequences for U.S. foreign 
policy, the United States would immediately be at war with any 
of the suspects. I do not think that we would be deliberating 
for months trying to figure out exactly who was responsible, 
but anyone who might vaguely be on the list would quickly be 
under attack.
    The Iranians have looked at our response to September 11, 
where we overthrew two governments and that was in response to 
a tragic and horrible attack, but it killed 3,000 people--
something far less than a nuclear attack. I believe they know 
that the Islamic Republic would be no more if they did such an 
attack, even if we could not have the evidence that would hold 
up in a court of law.
    Your point about Pakistan, certainly by any definition Iran 
has many Islamic extremists. What is a distinction I would like 
to draw is between the Sunni jihadists who have shown 
themselves committed to complete annihilation and violence in 
many cases and who have demonstrated that they actively seek 
weapons of mass destruction--they have had programs. They have 
made statements saying it is a duty. The Shia radicals in Iran 
have been far more cautious in recent years and have not had 
the same degree of the desire to kill in large numbers that we 
have seen from the jihadists. That is why I am so concerned 
about Pakistan, sir.
    Mr. Langevin. Thank you.
    And to your point, you would agree that the potential 
exists for an A.Q. Khan-type to emerge from Iran if they were 
to develop nuclear weapons. There are dedicated Islamic 
extremists in Iran, just as there are in Pakistan.
    I agree that Pakistan is a problem and a concern, but could 
you elaborate a little more on what your concern would be in 
Iran?
    Mr. Byman. I am concerned about any country's control of 
its nuclear material. The ones on the head of the list would be 
Pakistan and Russia at the moment. Were Iran to go nuclear, I 
would also be concerned about control over its nuclear program.
    I would add, I think there has been useful fiction on A.Q. 
Khan, which is that this was done wholly without the knowledge 
of the Pakistani government. Given the sheer number of people 
involved, given the rank of the individuals involved, given the 
activities involved, it is shocking to me that the Pakistani 
government could not be largely aware of at least some 
activities.
    To me, to make clear in the future to every government 
around the world that we will hold them accountable for the 
activities of their citizens, and the excuse that they simply 
did not know, that is not acceptable to the United States, 
especially for something like an illicit nuclear arms network.
    Mr. Langevin. Thank you.
    I see my time has expired, so I thank you for your 
testimony, and I yield back.
    Mr. Linder. The gentleman from Washington state is 
recognized for 5 minutes.
    Mr. Dicks. Do we have any evidence of any states providing 
any weapons of mass destruction assistance to any terrorist 
groups?
    Mr. Byman. To my knowledge, there has been no deliberate 
transfer of chemical, biological and nuclear or radiological 
material to a terrorist group.
    We know that the Taliban was openly tolerating al-Qa'ida 
when it was openly seeking this in Afghanistan. The Taliban, of 
course, was too poor and primitive to provide electricity, so I 
think WMD programs are unlike there, but that is the closest.
    Also, the government of Sudan was involved in some murky 
activities, the details of which I have never been able to 
uncover, at a time when al-Qa'ida was present there and quite 
active there.
    Mr. Dicks. What are the steps that any of you would suggest 
we take to ensure that states are not tempted to supply 
terrorists with weapons of mass destruction or their 
components?
    Mr. Takeyh. On the specific issue of Iran, as I mention in 
my testimony, I do not believe there is anything inevitable or 
necessary about Iran becoming the next member of the nuclear 
club. I think, should Iran achieve that weaponry, it is a 
failure of American and international diplomacy.
    So one way of preventing Iran from actually transferring 
such weapons or having this decentralized government being 
tempted into such activities for ideological, political or 
strategic reasons, is actually trying to foster a situation 
where Iran does not cross the nuclear threshold.
    I think we are increasingly, in a disturbing way, beginning 
to move away from the idea of prevention to management, namely 
preventing Iran from achieving a nuclear status, as opposed to 
managing it. I am not quite sure we need to be at that level 
yet.
    There is still much the United States and the European 
allies and the international community can do to obstruct 
Iran's drive toward nuclear weapons or a nuclear energy or 
nuclear capability period. I think that is what most of the 
diplomatic efforts should try to focus on.
    Mr. Dicks. What is the basis of the negotiations between 
the Europeans and Iran?
    Mr. Takeyh. It might take place under three specific 
baskets.
    The first basket has to do with economic and trade 
cooperation between Iran and the European states and expansion 
of those commercial relationships should Iran restrain its 
program.
    The second basket has to do with security concerns, namely 
that the Europeans are trying to enhance Iran's security and 
therefore to lessen its motivation for nuclear arms.
    The final category is technology transfers, namely the 
Iranian claim that they have a right to peaceful use of nuclear 
technology and the European acceptance of the fact that should 
Iran cease its own indigenous activities they could be 
receiving some degree of nuclear cooperation from the 
international community.
    Mr. Dicks. What are the prospects for these negotiations 
between Iran and the Europeans?
    Mr. Takeyh. If you look at those three specific baskets, 
you begin to see that at least two of those, all three of 
those, it is impossible for these negotiations to succeed 
without some degree of American participation.
    On the issue of trade and cooperation, one of the principal 
obstacles, certainly not the only one, but one of the obstacles 
to greater Iranian integration into the international economy 
is American resistance, sanctions policy and so on. So the 
technology and cooperation basket that the Europeans are 
negotiating is unlikely to succeed without the American 
prohibitions being on the table.
    The security basket, I mean, what sort of security 
assurances are Germany and France going to give to Iran at a 
time when Iran is surrounded by a substantial amount of 
American forces? So that basket, in and of itself, is of 
limited utility.
    Finally, transfer of nuclear technology: It is 
inconceivable to me that the Europeans will transfer such 
transfer such technology to Iran so long as Iran continues to 
have its problems with the IAEA in terms of the ambiguity of 
its nuclear program, and so long as the United States finds 
that particular practice legitimately objectionable.
    So these negotiations are taking place and moving forward 
because everyone is interested in the process and not everyone 
is sanguine about the prospects of actually the E.U.-three 
resolving those very critical matters.
    Mr. Dicks. Why has the United States taken the position--
what is the administration's policy here?
    Mr. Takeyh. As far as I can decipher it, the United States 
policy at this particular point is that it refuses to engage in 
negotiations in a more direct manner with the Iranian regime 
because it does not want to legitimize that regime.
    To me, a regime's legitimacy comes from its own internal 
democratic processes. By that definition, the Islamic Republic 
is an legitimate regime. It is not for the president of the 
United States to ascribe that legitimacy to a government that 
does not enjoy the approbation of its citizenry, and the 
president of the United States cannot revoke that legitimacy 
either.
    So the legitimacy argument is a curious one.
    Mr. Dicks. You think it would be better for the United 
States to engage in these talks, right?
    Mr. Takeyh. I think it is getting late, because 
increasingly we have a government in Iran that may not 
necessarily be interested in negotiations. So it is late but 
may not necessarily be too late.
    But the time certainly is passing us by. A more robust 
American diplomacy 2 years ago or 3 years ago would have been 
more advisable. But at this particular stage in time, I think 
we are getting to a point where diplomacy--there might not be a 
deal out there, Congressman.
    Mr. Dicks. Yes.
    Mr. Chairman, could I have another minute?
    Mr. Linder. We will have another round. We will just go 
another round.
    Mr. Dicks. We will just go another round. That is perfect. 
Thank you.
    Mr. Linder. Are you saying the train has left the station?
    Mr. Takeyh. All the passengers are on board. The conductor 
is in there. The train is fully fueled and stocked. It is not 
leaving the station, but if I am approaching the platform, I am 
saying to myself, ``This train is about to leave the station.''
    Mr. Linder. Can any of you tell me if there are any 
internal political divisions in Iran?
    Mr. Giles?
    Mr. Giles. On the nuclear program in particular, I think 
what is interesting is to take the historical perspective.
    This program has been conducted in secret for the better 
part of two decades. You have seen basically three different 
factions ruling Iran during that time. You had the presidency 
of Ayatollah Khamenei, who is the current supreme leader. You 
had the presidency of Rafsanjani, and you had most recently the 
presidency of President Khatami, each representing a different 
spectrum within Iranian politics, and yet that program has 
proceeded all along.
    I think you can conclude from that, and in addition to 
their public statements, that there is widespread political 
support and investment in bringing that nuclear program to 
fruition.
    Mr. Linder. Dr. Byman, a recent State Department report 
concluded that Iran has an offensive biological weapons 
program. Can you comment on that? Would they be inclined to 
share it with terrorists?
    Mr. Byman. I think it would be even less likely that Iran 
would share a biological weapons program than a chemical 
weapons program. So my judgment is that it is unlikely they 
would share it with terrorists.
    Nevertheless, this program is of grave concern for a number 
of reasons. I mentioned before the apparatus needed to run a 
nuclear program and how it is quite considerable. That is not 
true for a biological program. It is much harder to detect from 
the outside. It is much harder to target from the outside.
    Biological programs are of concern from a military point of 
view. They are also of grave concern because their effects 
simply are not known anymore. We fortunately had a world where 
these programs have not been used for many years. Much of what 
can be done with modern medicine, modern biochemistry is 
unclear at this point. I am horrified that some day we will 
find out.
    Mr. Linder. At a meeting in the back of this very room some 
months ago with some Swedish scientists, I was informed that 
some Iranian families had emigrated from Iran to Sweden. All 
the children had been vaccinated for smallpox.
    Why would they do that? We haven't vaccinated anyone in 
this country since 1980. Any comments, anybody?
    Mr. Takeyh. I do know that is a large and growing Iranian 
community in the entire of Scandinavia, but I just do not have 
any informed judgment on that issue.
    Mr. Linder. Any comments?
    Mr. Byman. To my knowledge, the State Department report was 
not referring to smallpox as one of the biological weapons.
    Mr. Linder. That is correct, but I was just curious about 
vaccinating children for smallpox.
    Mr. Byman. This gets into the issue that Mr. Giles knows so 
well, which is the risk of the attack versus the other 
consequences, which every doctor I talk to revolts when I say, 
``Should we vaccinate against smallpox?'' I have discussed it 
with my own doctor with my own children for this very reason. 
Their response is the small percentage of individuals who have 
a negative reaction to the vaccination will be far more 
suffering than the likelihood of an attack.
    We have seen no serious smallpox program, to my knowledge, 
outside of a very limited handful of countries. But this, to 
me, should be one of the overwhelming intelligence priorities, 
because if we see the spreading, the answer may be that 
vaccination is necessary.
    Mr. Linder. It has been pointed out that the technical 
assistance in terms of weaponry provided by Iran to Hezbollah 
has been limited, but in the past several months it has been 
reported that more sophisticated shaped charged that are 
effective against armored vehicles, including tanks, have 
appeared in Iraq linked to Hezbollah.
    Doesn't this suggest a higher level of technological 
assistance?
    Mr. Byman. Hezbollah is quite good a guerrilla warfare and 
the tactics involved in guerilla warfare. It has spent 18 years 
attacking the Israelis and eventually removing them from 
Lebanon in part by getting better and better with Iranian help; 
in part by getting better and better on its own. It has a very 
formidable guerrilla cadre.
    The shaped charge is something that is technically a little 
difficult, but for a large guerrilla army to do, and having, as 
Hezbollah does, effectively a safe haven in Lebanon from which 
to operate, it is not a dramatic change. This is more a way of 
using existing technologies in more effective means. It is 
deadly, and that is part of the issue with WMD.
    I would say that a shaped charge is actually far more 
deadly in most cases than a chemical weapons attack. Therefore, 
these groups, for their own purposes, do not need 
unconventional systems.
    Mr. Linder. Thank you.
    Mr. Langevin?
    Mr. Langevin. Thank you.
    Dr. Takeyh, if I could just ask a few questions on your 
testimony.
    If I understood you right, you stated that Iran is not very 
concerned or feel threatened by Israel's nuclear capabilities, 
nor are they threatened by their overwhelming military 
superiority.
    If I understood you correctly in those two statements, then 
why develop a nuclear weapons program? What do they need it 
for?
    Mr. Takeyh. If you look at the totality of what Iranian 
leaders have said about their nuclear program since the mid-
1990s, if you kind of examine that, what struck me as rather 
curious was that Israel was never invoked in those discussions, 
or it was invoked I think with few exceptions.
    What derives from those commentaries, sermons, media 
reporting, speeches, the impression that one gets is that they 
seek such weaponry for, as I said, for deterrence against a 
variety of threats or perceived threats.
    For a long time, it was the potential resurrection of Iraq 
and the impact of the Iran-Iraq war on Iranian calculations and 
defense procurement policies is just remarkable, namely that 
they felt they had to develop an independent deterrent and 
retaliation capability in the realm of weapons of mass 
destruction. Eventually that started out with chemical weapons, 
and escalated into nuclear arms.
    In more recent times, there are a range of actors that have 
motivated Iran's unconventional aspirations: the United States, 
the strained relationship between these two countries that has 
become much more strained recently; the potential collapse of 
Pakistan to a radical Sunni regime with pronounced hostilities 
to Iran, this sort of a Talibization of Pakistan. That is an 
important security concern.
    Beyond that, the unpredictable nature of the Iraqi state, 
what type of Iraq will emerge; will there be a Iraq with a 
close alliance with the United States; will there be an Iraq 
that will house American forces; will there be an Iraq that 
will act as an adjunct of American power in the Persian Gulf. 
Would Iran need to hedge against a potential resurrection of a 
close Iraqi-American alliance in the Gulf by possession of such 
weapons?
    If you want to do down the threats, potentially Israel is 
there, but it is not in my view the foremost motivator of 
Iran's nuclear aspirations today. That may change. When we talk 
about the nuclear program, we have to talk about it as a 
dynamic and fluid proposition. It is not static. The list of 
motivations do change over time. Should there be a more active 
military confrontation between Israel and Iran, maybe Iranians 
will feel that they need the possession of this strategic 
weapon for deterrence of a now-escalated Israeli-Iranian 
hostility.
    For the past 25 years, the two states, Iran and Israel, 
have largely limited their conflict and have both worked hard 
to prevent that conflict from escalating into a direct military 
confrontation. Should that change, then I suspect Iran's 
strategic calculus will alter as well. But we have to look at 
this program both in terms of its technological aspects and 
both in terms of the motivations as a changing, fluid picture 
that alters from time to time.
    Mr. Langevin. You mentioned that you think that diplomacy 
is still possible, but isn't a very likely reason why they are 
developing nuclear weapons is, in a sense, Islamic pride, and 
that it is not only a threat issue, but they see it as a 
obligation of Islam to develop nuclear weapons. I believe it 
was Iran who said that they have the obligation within the next 
10 years to develop nuclear weapons.
    Mr. Takeyh. I think if you kind of look at this program, 
you have to differentiate between, at least in Iranian 
rhetoric, between the nuclear program as sort of a means of 
modernization of the economy, and the nuclear weapons program. 
They try to draw those delineations I think in a rather 
unconvincing way.
    In today's Iran, I actually do not believe that the 
phenomena that we saw in Pakistan and India has happened, 
namely the nuclear program merges with the sense of national 
identity and national prestige. This is largely an elite-driven 
program, not one that the Iranian population has embraced.
    For the Iranian population, the nuclear program is the 
regime's program. It is not a national program. It is the 
government's program. And to gap between the regime and the 
society, between the rulers and the ruled, is still wide. The 
Iranians are so alienated from the regime that they are 
unwilling to embrace it even when it is on the process of a 
seeming international confrontation.
    Again, we have to look at this program as a dynamic one. 
That may change. Maybe the nuclear program will become embraced 
by the population as it develops and it crosses successive 
technological demarcations.
    But the sort of embrace of the nuclear program that you saw 
in Pakistan and you saw in India, that has not happened as of 
yet in Iran. If you ask an Iranian, do you think your country 
should have nuclear weapons? He says, oh yes. If you ask him 
the second question, do you think it should have nuclear 
weapons if it provokes international multilateral sanctions, 
then you get a different sort of an answer.
    Again, as I said, this is a changing landscape. So that is 
why the sooner there can be some sort of an agreement to 
suspend this program on a more permanent basis, the sooner we 
can avoid a great deal of problems down the road.
    Mr. Linder. The time of the gentleman has expired.
    Mr. Dicks?
    Mr. Dicks. What do you think the United States should do 
about this situation with Pakistan? It appears to me, as you 
testimony clearly demonstrates, that Pakistan has more serious 
problems in terms of stability and a much more advanced 
program, and clearly has nuclear weapons. Should we be 
reassessing our position regarding Pakistan?
    Mr. Byman. Sir, I will give you my opinion.
    To me, the Bush administration's policy of embracing the 
Musharaff regime is a correct one in general, but I think it 
has been a bit too enthusiastic.
    There are few good alternatives in Pakistan. I cannot sit 
here and tell you that there is a great alternative that no one 
is doing. All the choices are bad. But the problem is that our 
embrace has weakened many of the sources of opposition to 
Musharaff that are not Islamist. Musharaff has forged a deal 
with some of the Islamists in the country. As a result, much of 
the more secular opposition, much of the more traditional 
opposition has become very weak.
    We need to hedge our bets a bit. Although it is important 
to maintain ties to this regime in the important day-to-day 
efforts we have against terrorism, we need to be able to reach 
out to others. That is, first of all, in case there is a shift 
in regime, but it is also a way of gaining leverage over the 
Musharaff regime. So he right now believes that we need him 
more than he needs us. That limits our influence. For me, 
having as many points of influence in the country is vital.
    Mr. Dicks. Does he have control over the entire situation 
in his country? There has been some discussion that maybe there 
are elements within his society, maybe the intelligence arena 
in one particular area, where he may not have complete control; 
that they may be operating independently of the government and 
causing difficulties. Do you think that is an accurate 
assessment, or is that a possible problem?
    Mr. Byman. I think that is an accurate assessment. I would 
say several things about that.
    The regime exercises control in most of the urban areas, 
but it does not exercise control in all the countryside. It 
relies heavily on local groups, some of which are loyal to the 
regime; some of which work with it on a fitful basis.
    In terms of the military and intelligence, the senior 
officials are loyal to the regime, but they do not always have 
control over their forces all the way down. So you may have the 
border guard commander who actually wants to try to help stop 
Taliban from going back and forth, but the local border 
patrolman is sympathetic to the Taliban and lets them go back 
and forth.
    As the more junior officers become promoted, many of them 
have Islamist sympathies. I am concerned that over time we are 
going to see a regime that is not al-Qa'ida, is not jihadist, 
but is much more sympathetic to some of their objectives.
    A particular concern I have is much of the effort Pakistan 
is waging against India and Kashmir involves using jihadist 
groups as proxies. These jihadist groups overlap in terms of 
training, recruitment, arms, passports, with groups linked to 
al-Qa'ida. It is impossible for Pakistan to say it is fighting 
al-Qa'ida as hard as it can, but not be dismantling the 
apparatus it uses to wage war in Kashmir.
    Mr. Dicks. It is true that some of the people who are 
involved in the recent bombings in London had been trained or 
spent time or whatever in Pakistan. Isn't that correct?
    Mr. Byman. They spent time in Pakistan. What they were 
doing there at this point, we do not know, or at least I do not 
know, I should say. But that is, to me, one of the areas to 
watch. There are camps in Pakistan where people will go for 
training and the training is generic. It is meant in part to 
help in Kashmir, but if you learn to build a bomb in Kashmir, 
the bomb also works in London.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Linder. Mr. Langevin has another question.
    Mr. Langevin. Just briefly, if I could--and thank you for 
the extra time, Mr. Chairman.
    According to the latest intelligence estimates, Iran is 
approximately 10 years away from developing a nuclear weapon. 
There are others who have said that the time is probably 
sooner. I do not know if any of you have read my colleague's 
book, Mr. Curt Weldon, ``Countdown to Terror.'' He would 
suggest that the time is much shorter.
    Would you care to speculate?
    Mr. Takeyh. There is another study that came out from the 
International Institute of Strategic Studies which I think 
suggests 5 years.
    But much of this depends on what type of a program it is. 
Is it a crash program? Is it an accelerated program? Is the 
country going to devote its resources to development of a 
nuclear weapon with the singular focus that Pakistan did, or is 
it going to move along on its current procurement and funding 
practices? So I think it is difficult to gauge that particular 
timeline.
    The current efforts that Iran is making and with its 
continued reliance on international technology to some extent, 
then we could see that being problematic. But I would actually 
suggest that the time that Iran develops nuclear weapons is not 
as significant as the point that they crossed the decision, the 
sort of point of no return where all political forces are 
determined to actually construct the bomb.
    That, to me, is a more difficult timeframe to gauge than 
the technological aspect of it because if that happens, if the 
regime makes a fundamental determination to utilize all 
national resources behind a crash program to develop a nuclear 
bomb and a delivery system, then I think that timeframe is 
going to lessen dramatically.
    Mr. Langevin. What data do you have to support, though, 
that suggested that they have not already made that political 
decision? It would seem to me, all indications now, especially 
the fact that the program has been conducted in secret, that 
they have already made that political decision.
    In addition to the fact that the material that they are 
reprocessing right now, they are attempting to make weapons-
grade uranium. It could very easily lead to the creation of a 
nuclear device. In fact, you mentioned in your testimony that 
the Europeans are unlikely to help transfer nuclear weapons 
technology, given the context.
    Mr. Takeyh. Well, nuclear technology, yes.
    Mr. Langevin. Nuclear weapons-type technology. But if they 
were developing weapons-grade uranium, they could simply make a 
gun-type device and they do not quite frankly need European 
technology.
    Mr. Takeyh. Here is where we get into a difficult position. 
Much of the technology that you require to build a civilian 
nuclear program is quite similar to the technology that you 
require to build weapons. There is a break-off point at some 
point.
    But at this particular point, the latest IAEA report 
indicates that there is no evidence that international 
inspectors have uncovered that Iran has transferred its nuclear 
technology from military purposes. The activities that are 
taking place right now in Isfahan, I believe you mentioned, 
actually take place under the auspices of the inspection and 
the inspection process.
    What the Iranians are suggesting they are doing is 
developing indigenous uranium enrichment capability, but not at 
the weapons-grade, but for actually peaceful uses. That is the 
problem with the ambiguity of technology, because enrichment up 
to a certain level is suitable for energy purposes. Beyond a 
certain level, then you can have a weapons capability. This is 
why the development of Iranian nuclear infrastructure is 
worrying.
    I think the critical timeframe at this particular point, we 
still believe that Iran requires external assistance for 
completion of this nuclear program. But increasingly, it will 
get to a point which you are suggesting, namely it will have 
indigenous technological capability to complete the program 
without any sort of a reliance on external actors.
    I do not believe it is there yet in terms of the completion 
of the centrifuge machines, which they still require technology 
from abroad. They could get it from the black market. They used 
to get it from A.Q. Khan network and others. But it is still a 
program that as far as we know is still to a certain extent 
reliant on external assistance, whether it is from black 
markets in Russia or elsewhere.
    But that may change. Again, that is going to change over 
time.
    Mr. Langevin. What data are you using to support the 
conclusion that they have not yet made the political decision 
to cross that red line yet?
    Mr. Takeyh. I just haven't seen any evidence that suggests 
it. I would say, based upon my examination, that the Iranian 
regime is committed to development of a sophisticated nuclear 
program that may give them the opportunity to weaponize that 
program should that situation be reached. In a faction-driven 
Iranian system, I think that is as far as you can go.
    I think they have delayed the decision to actually cross 
the threshold, but they are doing everything they can to build 
the technological capability that allows them to make that 
decision at some point in the future.
    Mr. Langevin. In timeframe, gentlemen, do you agree that 5 
years or 10 years?
    Mr. Giles. Congressman, I have been following the public 
side of this issue for some time. I will just say that these 
estimates are very fungible and they have changed over the 
years. Estimates from the Israelis have said they would be 
there by now. They go up and down. The IAEA had its own 
estimate. It seemed to fall around the 5-year range.
    The latest swing is that they are now pushing the estimates 
out, according to the press, our own intelligence estimate. The 
Israelis have fallen in line with those for the most part. It 
is consistent with the IASS.
    I am just concerned that you are seeing conventional wisdom 
maybe shifting too far in the other direction. There are people 
who have noted that we are talking about technology from the 
1940s, essentially, in trying to fabricate a weapon. So it 
depends on your assumptions whether or the Iranians have a 
secret military program in addition to the civilian program.
    So I am generally skeptical about all of the estimates that 
I have seen discussed publicly.
    Mr. Linder. Thank you all. Thank you gentlemen for giving 
us a couple of hours of your time. I am sorry we were so late 
getting started. We are grateful for your time. Thanks.
    [Whereupon, at 1:06 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
